Cvrs 2-23-04.qxd   3/19/04   11:15 AM   Page 2




                                                                                       Office of Inspector General
                                                                                       U.S. Department of Transportation




                                                 U.S. Department of Transportation
                                                      Office of Inspector General
                                                       400 Seventh Street, S.W.
                                                                                     APRIL 1 – SEPTEMBER 30, 2003
                                                       Washington, D.C. 20590
Complete book5.qxd   3/22/2004   12:32 PM   Page I




       semiannual
        report to
        congress
                        April 1–September 30, 2003




         Office of Inspector General ■ U.S. Department of Transportation
Complete book5.qxd   3/22/2004   12:32 PM   Page II
Complete book5.qxd         3/22/2004        12:32 PM        Page III




                      c o n t e n t s
       From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page v
       Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1
       Audits, Investigations, Testimony
             Aviation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 7
                  FAA Modernization Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 13
             Maritime . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 17
             Highway, Transit, and Rail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 19
                  Stewardship of Highway and Transit Programs                                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 27
             Financial and Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 31
                  Security of Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 33
             Transportation Safety . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 35
                  Aviation Safety . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 37

       Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 45
       Charts & Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 49
             Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 49
             Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 50
             Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 51
             Application of Investigative Resources by Priority Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 51
             Application of Investigation Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . . .Page 52
             Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 52
             OIG Reports with Recommendations That Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 53
             OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . .Page 53
             OIG Reports Recommending Changes for Safety, Economy, or Efficiency                                                  . . . . . . . . . . . . . . . . . . . . .Page 54
             Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 54
             Office of Inspector General Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 55
             Office of Inspector General Congressional Testimonies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 58
             Status of Unresolved Recommendations Over Six Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 59
             Application of Audit Project Hours by Operating Administration                                         . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 60

       Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 61
       Mission, Organization, & Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 70
       Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 73




                                                                                                                                                                                       iii
Complete book5.qxd   3/22/2004   12:32 PM   Page IV
Complete book5.qxd   3/22/2004   12:32 PM   Page V




               from the
       i n s p e c t or g e n e r a l
      D       uring the reporting period, we focused on the Department’s missions of transportation safety, mobility, and effi-
              ciency. Carrying out these responsibilities poses great challenges in the current environment of deficit spending,
       reduced trust fund revenues, increased program needs, and pending reauthorizations for intercity passenger rail, high-
       ways, motor carriers, and transit; yet, for the third consecutive year, the Department received an unqualified or “clean”
       audit opinion on its recent financial statements, reflecting its emphasis on stewardship over Federal funds.
          Certain DOT Operating Administrations, however, will need to make major improvements in their accounting poli-
       cies and procedures for the Department to complete its FY 2004 financial statements by the accelerated OMB dead-
       line of November 15, 2004.
          I would like to thank Secretary Mineta and his staff and members of Congress and their staffs for their continuing
       support, which helps save taxpayers money and promotes a safer, more effective, and more efficient transportation
       system.
          This period, we delivered 10 congressional testimonies, issued 54 audit reports, and made more than $410 million
       in financial recommendations that questioned costs and suggested how funds be put to better use. Our investigative
       work resulted in more than $127 million in fines, restitutions, civil judgments, and recoveries, with 83 convictions.
          We also issued our report identifying the Department’s top management challenges for FY 2004, which form the
       foundation of our work.
          ■ Highway Safety. Since 1998, we have identified suspected fraud in the testing and licensing of commercial drivers
       in 16 states. Safety and security concerns dictate that we take preventive action against such fraud. Of over 40,000
       highway fatalities annually, 11 percent involve large trucks, making it important to strengthen the system that identi-
       fies high-risk motor carriers for heightened review. We are evaluating NHTSA’s progress in implementing the TREAD
       Act. While NHTSA has made strides in issuing several required rulemakings, the year ahead will determine whether
       the agency will be able to fully evaluate the early warning information that vehicle and equipment manufacturers must
       now submit.
          ■ Aviation Safety. FAA’s challenge involves adjusting its safety oversight to keep pace with emerging trends in the
       aviation industry and changing economic conditions, such as developing a more comprehensive approach to repair-sta-
       tion surveillance, in addition to maintaining a focus on long-standing safety issues. On average, in FY 2002, at least
       one commercial aircraft was involved in a serious runway incursion (a potential collision on the ground) or operational
       error (when air traffic controllers allow planes to come too close together in the air) once every 10 days. We have seen
       considerable progress on runway incursions, but operational errors continue to represent a safety problem in our air
       traffic control system.
          ■ Hazardous Materials Safety and Security. From 1990 to 2000, incidents involving the transport of hazmat by
       motor carriers doubled from 7,296 to 14,743, and incidents involving hazmat shipments by air carriers tripled from
       470 to 1,415. The challenge facing the Department is to strengthen the capacity of the Operating Administrations to
       work together in developing policy and regulations and overseeing inspections and enforcement of hazardous materi-
       als transportation.



                                                                                                                                   v
Complete book5.qxd     3/22/2004    12:32 PM      Page VI




            ■ Protect Taxpayer Investments in Highway and Transit Infrastructure Projects. We must sustain efforts to ensure
         that highway and transit projects are delivered on-time, within budget, and free from fraud, and aggressively fight
         motor fuel-tax evasion, which drains revenue. Over the last 4½ years, highway and transit fraud indictments have
         tripled, convictions have doubled, and monetary recoveries exceeded $89 million. We have 130 open investigations
         of infrastructure projects in 36 states. Whether funds are lost to cost overruns, schedule delays, or fraud, the result
         is the same — fewer resources are available for important transportation projects. To illustrate, if the efficiency with
         which the $700 billion invested in highway projects by the Federal Government and the states over the last six years
         had been improved by only one percent, it would have resulted in an additional $7 billion — enough to fund eight
         of the 15 active, major highway projects.
            ■ Controlling Costs and Improving Acquisitions at FAA. FAA’s FY 2005 authorization of $14.6 billion exceeds esti-
         mated Aviation Trust Fund FY 2005 revenues by $3.5 billion. Over the next four years, the fund is expected to col-
         lect about $12.5 billion less in taxes than was anticipated in April 2001. We see positive signs that FAA is committed
         to making changes, which is necessary, since spiraling cost growth is not sustainable from a budgetary standpoint or
         that of a performance-based organization.
            ■ Intercity Passenger Rail. DOT and Congress required greater financial accountability from Amtrak this year.
         However, Amtrak’s authorization expired over a year ago. For FY 2004, the Administration requested $900 million,
         Amtrak says it needs $1.8 billion, and Congress provided $1.2 billion. The Administration’s bill proposes to focus
         Federal capital funding on developing and investing in short-distance corridors — routes with end-to-end distances of
         less than 500 miles. While this would target improvements, it could affect longer routes serving multiple cities.
            ■ MARAD Loan-Guarantee Program. The Maritime Administration is implementing new procedures that will mini-
         mize financial losses to the Government from MARAD’s $3.8 billion Title XI Loan-Guarantee Program. Congress
         requested that we audit the program following several large loan defaults, which cost nearly $490 million, and has since
         linked MARAD’s ability to issue further guarantees to implementation of sound financial practices.
            ■ Financial Accountability. The Department has made recent progress in this area, perhaps most notably in achiev-
         ing a “clean” audit opinion on its FY 2003 consolidated financial statements. Three important financial activities still
         need strengthening: making idle funds available, especially at the Federal Highway Administration and Federal Transit
         Administration; improving oversight of cost-reimbursable contracts; and completing implementation of the new
         Delphi financial management system, which will enable DOT to strengthen financial controls and generate reliable
         financial reports.
            ■ Disadvantaged Business Enterprise Program. The DBE program suffers from a high level of fraud and abuse, as
         well as significant gaps in the Department’s oversight. We are currently investigating 40 DBE fraud schemes in 19
         states and have found areas where the DBE regulations need strengthening, especially those covering airport conces-
         sions. The Secretary established a senior-level DBE task force to address these issues, and it is vital to keep our atten-
         tion focused.
            ■ Information Technology Management. The Department has made progress protecting its computer systems from
         Internet intrusions from outsiders. However, DOT should do more to secure its computer systems (especially air traf-
         fic control systems) from attack by insiders, whom the FBI recognizes as a major threat, as well as enhance planning
         to ensure continuity of business operations in an emergency.




                                                                                  Kenneth M. Mead
                                                                                  January 2004

    vi                 Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:32 PM   Page 1




       work planned
          and in
         progress


      T
               his section describes the major work the Office of Inspector General
               (OIG) has planned for the next reporting period — October 2003
               through March 2004 — as well as work already in progress.

                                            Aviation
         ■ ATOP
          Evaluate FAA’s management of the Advanced Technologies and Oceanic
       Procedure Program (ATOP) with respect to cost, schedule, and performance.
       ATOP will modernize Federal Aviation Administration (FAA) facilities
       responsible for managing large segments of airspace over the Atlantic and
       Pacific Oceans, significantly increasing the efficiency and capacity of interna-
       tional air traffic.

          ■ Air Traffic Controllers
          Determine whether: (1) FAA has identified future hiring
       requirements for air traffic controllers and developed strate-
       gies for filling vacancies; (2) FAA’s planned methods of
       training controllers will be sufficient to meet projected
       staffing requirements; and (3) FAA has considered alterna-
       tive approaches that could expedite the training process and
       reduce costs. Attrition in FAA’s air traffic controller work-                      An FAA classroom. We will determine if
       force is expected to rise sharply in upcoming years.                               FAA’s methods for training air traffic
                                                                                          controllers can meet future staffing needs.

          ■ FAA Oversight of Air Carriers
          Determine whether: (1) FAA monitoring of financially distressed air carriers
       is effective; and (2) FAA has effectively implemented procedures to heighten
       surveillance of low-cost air carriers.

         ■ Aircraft Design and Manufacture
          Evaluate FAA’s oversight of aircraft manufacturers’ quality-assurance system
       for domestic and foreign suppliers. We may also evaluate FAA’s process for
       reviewing and approving foreign-manufactured aircraft.


                                                                                                                                        1
Complete book5.qxd   3/22/2004   12:32 PM      Page 2




                                                    ■ Next-Generation Air-Ground Communication Program
                                                     Determine whether: (1) FAA’s acquisition strategy for the Next-Generation
                                                  Air-Ground Communication Program is cost-effective and there are opportu-
                                                  nities to reduce program costs; (2) key risks to this new communication system,
                                                  including any security concerns, are adequately addressed in the program
                                                  design; and (3) FAA has an effective process to control contract costs.

                                                    ■ En-Route Automation System
                                                     Determine: (1) whether FAA has a realistic and executable plan to provide
                                                  a new en-route automation system on time and within budget; (2) key pro-
                                                  gram risks that could affect FAA’s ability to meet cost and schedule projec-
                                                  tions; and (3) whether FAA has adequately addressed computer security in the
                                                  system design. The en-route automation modernization program is intended
                                                  to replace computer hardware and software used to receive, process, and track
                                                  the movement of high-altitude aircraft throughout the National Airspace
                                                  System.

                                                                   Financial and Information Technology
                                                    ■ Inactive Obligations
                                                     Determine whether inactive obligations (where there have been no transac-
                                                  tions in 18 months) represent valid financial liabilities.

                                                    ■ DOT Consolidated Financial Statements
                                                     Perform our annual audit of the Department of Transportation’s (DOT)
                                                  principal financial statements to determine whether DOT had adequate inter-
                                                  nal controls over financial reporting in FY 2003; DOT complied with laws and
                                                  regulations; and the statements conformed to generally accepted accounting
                                                  principles. We will also monitor the work of the accounting firm that audits the
                                                  FY 2003 financial statements of FAA, the National Transportation Safety Board
                                                  (NTSB), Transportation Security Administration (TSA), Saint Lawrence
                                                  Seaway Development Corporation, and Highway Trust Fund to ensure the
                                                  work was performed in accordance with generally accepted auditing standards
                                                  and Office of Management and Budget (OMB) guidance.

                                                   ■ FAA Cost-Accounting System
                                                    As required by the Aviation Investment and Reform Act for the 21st
                                                  Century (AIR–21), issue our fourth annual report to apprise Congress of
                                                  FAA’s progress in implementing its cost-accounting system.

                                                    ■ Information Technology Management
                                                    Review DOT’s plans, progress, and coordination in enhancing information


    2          Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:32 PM   Page 3




       technology (IT) security, management of its IT investment, and E-government
       services.

          ■ Department and Operating Administration Internal Controls
          Review DOT’s internal controls report, ensure that all material internal con-
       trol weaknesses have been included and the status of corrective actions has been
       accurately reported, and provide our assessment of the report to the Secretary.
       Also review the Operating Administrations’ internal control procedures and
       compliance with accounting regulations regarding suspense accounts.

                            Surface and Maritime Programs
         ■ Highway-Rail Grade Crossings
          Evaluate the Department’s progress on its 1994 initiatives to improve
       grade-crossing safety and its efforts to implement the recommendations
       from our 1999 audit report, and identify strategies for reducing accidents
       and fatalities at grade crossings.

         ■ SafeStat
          Determine whether: (1) the Federal Motor Carrier Safety
       Administration’s (FMCSA) Safety Status Measurement System (SafeStat)
       reliably identifies high-risk motor carriers by verifying whether the scores calcu-
       lated are consistent with the model’s design; (2) the data SafeStat uses are com-
       plete, consistent, accurate, and timely; and (3) quality-control systems are ade-
       quate to ensure the quality of information. SafeStat is an automated analysis sys-
       tem designed to measure the relative safety fitness of motor carriers based on
       performance data.

         ■ Tren Urbano
          For the Tren Urbano Rail Transit Project in San Juan, Puerto Rico, evaluate
       the reliability of cost and schedule estimates; reasonableness of the financial
       plan; progress made in resolving significant, outstanding construction quality
       problems; and the Puerto Rico Highway and Transit Authority’s plans and pro-
       cedures to begin Tren Urbano’s revenue operations, including operational test-
       ing of the rail system.

         ■ TREAD Act
         Evaluate the National Highway Traffic Safety Administration’s (NHTSA)
       progress in implementing our 2002 audit recommendations. We will examine
       NHTSA’s efforts to: (1) implement rulemakings required by the Transportation
       Recall Enhancement, Accountability, and Documentation (TREAD) Act; (2)
       ensure the Office of Defects Investigation has the appropriate information-sys-


                                                                                             w or k p l a n n e d a n d i n p r o g re s s   3
Complete book5.qxd   3/22/2004   12:32 PM      Page 4




                                                  tem infrastructure and processes in place to promptly identify potential defects,
                                                  as intended by the TREAD Act; and (3) establish processes to ensure consisten-
                                                  cy in recommending and opening vehicle-defect investigations in order to make
                                                  certain the highest priority cases are investigated.

                                                     ■ Major Highway and Transit Projects
                                                     Identify: (1) the status of selected major highway and transit projects in the
                                                  final design and construction stages; (2) risks that may adversely affect these
                                                  projects; and (3) best practices in use by project sponsors and grantees to man-
                                                  age cost, schedule, and funding risks.

                                                    ■ Slow Orders and Track Reclassification
                                                     Evaluate the Federal Railroad Administration’s (FRA) oversight of the use of
                                                  slow orders and track reclassification and the effects of their use on railroad
                                                  track safety and service schedules. Railroads use slow orders to reduce train
                                                  speed in response to certain track defects or adverse weather conditions.
                                                  Railroads also reclassify segments of track to change maximum allowable oper-
                                                  ating speeds and corresponding maintenance requirements.

                                                     ■ Big Dig Financial Plan
                                                     As required by Congress, determine whether: (1) the estimated cost of the
                                                  Central Artery/Tunnel Project in Boston, MA, is reasonable; (2) the funding
                                                  is sufficient to meet the estimated cost; (3) the project schedule is reasonable
                                                  and concerns raised in our prior report have been addressed; (4) cash flows and
                                                  other project information are accurately presented; and (5) progress has been
                                                  made in recovering costs for design errors and omissions.

                                                    ■ FTA’s New Starts
                                                    Evaluate the Federal Transit Administration’s (FTA) “New Starts” criteria
                                                  and efforts to ensure that cost-effective transportation solutions are recom-
                                                  mended for funding.

                                                    ■ Bridges
                                                     Evaluate whether structurally deficient bridges in the National Highway
                                                  System have been inspected in accordance with National Bridge Inspection
                                                  Standards, and oversight by the Federal Highway Administration (FHWA) is
                                                  effective in addressing deficiencies with these bridges.

                                                    ■ Motor Carrier Safety
                                                     Assess FMCSA’s progress in implementing our prior recommendations for
                                                  strengthening enforcement of motor carrier safety regulations and improving
                                                  data to regulate the motor carrier industry.


    4          Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:32 PM   Page 5




                          Competition and Economic Analysis
         ■ Amtrak
          Perform our annual congressionally mandated review of Amtrak’s financial
       status and evaluate its operating and capital budget performance, the 2004
       grant request, and its long-term capital needs.

         ■ Title XI
          Determine if the Maritime Administration (MARAD) has implemented poli-
       cies and procedures that adequately respond to our recommendations on the
       Title XI loan-guarantee program, so we can certify to Congress that our rec-
       ommendations have been met, thereby enabling MARAD to obtain access to
       $25 million in appropriated funds.

         ■ High-Speed Rail Corridors
          Assess the status of each designated high-speed rail corridor, focusing on
       demand studies performed to date, expense projections, estimated capital
       requirements, and proposed implementation schedules.

         ■ Regional Jets
          Evaluate the Department’s oversight of the growing use of regional jets and
       the effects on operations and competition in the aviation system. Estimate the
       impact of regional jets on airfares and identify how the airlines are using region-
       al jets to replace and supplement mainline service, introduce new service, and
       replace turboprop service.

         ■ Airline Industry Metrics
         Report airline industry metrics that monitor trends in domestic air-service
       demand and capacity, air-service performance, airline finances, and air service at
       small airports.


           Hazardous Material, Security, and Special Programs
         ■ Pipeline Safety
          Assess whether the Office of Pipeline Safety of the Research and
       Special Programs Administration (RSPA): (1) fulfilled pipeline safety
       mandates from 1992 and 1996 legislation; (2) expanded research and
       development to improve technologies used in pipeline inspections; (3)
       provided specialized training to pipeline inspectors on internal inspec-
       tion technologies used in, and reports generated from, pipeline
       inspections; (4) corrected shortcomings in pipeline data collection
       and analysis; and (5) established timetables to implement open NTSB


                                                                                             w or k p l a n n e d a n d i n p r o g re s s   5
Complete book5.qxd   3/22/2004   12:32 PM      Page 6




                                                  pipeline safety recommendations. Because of the need to protect the nation’s
                                                  pipeline infrastructure, we will also review the Office of Pipeline Safety’s
                                                  involvement in the security of the pipeline system.

                                                    ■ Volpe Center
                                                     Determine: (1) how the role and functions of the Volpe National
                                                  Transportation Center in Cambridge, MA, have changed over the years and
                                                  whether the center’s current activities meet DOT needs; (2) whether the cen-
                                                  ter has the financial controls in place to assure its service fees are appropriate;
                                                  and (3) DOT’s role in overseeing the center and whether that role is adequate
                                                  to ensure the center provides cost-effective services.

                                                    ■ FAA Hazmat Regulations
                                                     Determine whether FAA is ensuring compliance of the aviation industry
                                                  with hazardous materials (hazmat) regulations, and shippers, indirect air carri-
                                                  ers, and air carriers are complying with FAA’s hazmat requirements. We will
                                                  also review FAA’s involvement in the security of hazmat shipments by air.

                                                    ■ DOT Rulemaking
                                                     Determine: (1) how many of DOT’s rulemaking actions were completed on
                                                  schedule, how many were completed behind schedule, and how many were not
                                                  completed; and (2) where the longest delays occurred for rules that were late
                                                  (for example, with the Operating Administrations, General Counsel, OMB)
                                                  and the length of those delays.




    6          Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:32 PM   Page 7




                 Audits, Investigations, Testimony

                     av i at i o n

               IG Testifies on State of the Aviation Industry and FAA
       April 2 and 9
          As Congress began its deliberations on FAA’s FY 2004 appropriation, the
       Inspector General testified twice regarding the state of the aviation industry
       and FAA. On April 2, he provided testimony before the Senate Transportation-
       Treasury Appropriations Subcommittee regarding the airline industry and
       FAA, and on April 9 he testified before the House subcommittee
       counterpart regarding FAA’s operations and modernization budget.
          In his Senate testimony, the Inspector General advised “great care”
       to ensure that a congressional relief package (to aid the ailing airline
       industry): (1) does not provide a cash subsidy that allows the airlines
       to avoid making the hard calls necessary to become sustainable (such
       as lowering labor costs, including management salaries and bonuses)
       and increasing productivity of capital; (2) requires documentary evi-
       dence showing that airline security-related costs eligible for reim-
       bursement were actually incurred; and (3) be of limited duration.
          Effective cost control is an important challenge for FAA, the IG
       testified before both panels. FAA’s budget has increased more than
       70 percent over the past eight years — from $8.2 billion in FY 1996
       to $14 billion in FY 2004. This magnitude of continued cost growth
       cannot be sustained given the financial state of the airline industry,
       multibillion-dollar declines in projected Aviation Trust Fund receipts, and
       greater dependence on the General Fund to pay for FAA’s operations. DOT
       Under Secretary for Policy Jeff Shane also testified at the Senate hearing, and
       FAA Administrator Marion Blakey testified at both hearings.

                     Six Sentenced in Airways Luggage Theft Ring
       April 14 & May 1
           Six ramp agents who worked for a contractor of British Airways at Miami
       (FL) International Airport were sentenced in U.S. District Court in Miami for
       stealing valuables from the luggage of British Airways passengers after ear-
       lier pleading guilty. While some of the group stood lookout, others would


                                                                                         7
Complete book5.qxd   3/22/2004    12:32 PM      Page 8




                                                     break open luggage inside a plane’s cargo hold and steal jewelry, laptops, per-
                                                     fume, and other items of value. British Airways claimed losses and damage of
                                                     over $300,000 from the theft. A surveillance camera set up by British Airways
                                                     led to the thieves’ arrest.
                                                         The six defendants collectively were ordered to spend four months in jail,
                                                     perform 1,000 hours of community service, and pay $6,000 in restitution.
                                                     They were all arrested in December 2002 by OIG, the Miami-Dade Police
                                                     Department, and U.S. Customs Service.

                                                                      Former Miami Aviation Director Gets
                                                                     4 Years in Contracts-for-Bribes Scheme
                                                     April 25
                                                       Ricardo Mendez, former assistant aviation director for the Miami-Dade
                                                     County (FL) Aviation Department, was sentenced to four years in prison by a
                                                                       U.S. District Court judge in Miami, FL, for awarding no-bid
                                                                       contracts in exchange for bribes at Miami International
                                                                       Airport (MIA) and failure to pay Federal taxes on the
                                                                       illegally gained income. His wife, Mirta Mendez, received
                                                                       five months in prison and five months of house arrest for her
                                                                       role in the scheme.
                                                                           Ricardo Mendez awarded a contract to Engineering &
                                                                       Construction Services, Orlando, FL, to provide computer
                                                                       simulations of the MIA expansion. Company owner, Marilyn
                                                                       J. Parker, was sentenced to three years probation after plead-
                                                                       ing guilty in 2001 to paying the Mendezes $145,000 in
                                                                       bribes for her computer services. The other contract involved
                                                                       cleaning contaminated soil at the airport. That contractor,
                                                                       Edwin Perkinson, admitted paying Mendez $81,500 to win
                                                     part of this job and was sentenced to a year in prison. The investigation was
                                                     conducted jointly by OIG, IRS, and the Miami-Dade Police Department.

                                                                  Report on the Yardley/Robbinsville Flip-Flop
                                                     May 20
                                                        At the request of Rep. Mike Ferguson, we reviewed FAA’s actions to inform
                                                     Congress and the public about the Yardley/Robbinsville (NJ) “Flip-Flop.”
                                                     The Flip-Flop, implemented on December 27, 2001, as part of FAA’s National
                                                     Choke Points Initiative, was undertaken to reduce airline delays that reached
                                                     intolerable levels in the summer of 2000. It swapped (flip-flopped) air traffic
                                                     flows into Newark International and LaGuardia International Airports.
                                                        Although FAA was not required to inform the public about the airspace
                                                     change, it decided to do so as part of a much larger airspace-redesign initiative


    8                Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:32 PM   Page 9




                 Audits, Investigations, Testimony

                     av i at i o n

      planned for the New York/New Jersey/Philadelphia region in 2005. FAA stat-
      ed in various documents that agency officials had informed members of
      Congress, community leaders, and affected citizens about the Flip-Flop and
      that they were supportive of the airspace change. After the Flip-Flop was imple-
      mented, it generated considerable controversy with elected officials and citizens
      in New Jersey, and Rep. Mike Ferguson asked us to review FAA’s efforts to
      inform Congress and the public about it.
         We found that FAA embedded congressional
      and public outreach efforts for the Flip-Flop in
                                                         “FAA misjudged the reaction the                       Flip-
      the much larger airspace initiative planned for
                                                                       Flop would generate.”
      the New York/New Jersey/Philadelphia region.
      FAA did not provide detailed information to
      members of Congress and the public on the Flip-Flop and its potential impacts.
      Our review of FAA records did not support agency statements that it briefed
      members of Congress, community leaders, and affected citizens specifically
      about the Flip-Flop. FAA determined the Flip-Flop would not be controver-
      sial to the citizens of New Jersey, thereby relieving the agency from taking
      actions to inform them about the change even though more than 380,000 peo-
      ple would be subjected to increased noise levels.
         We recommended that FAA avoid combining vastly different airspace-
      redesign efforts, document how it determines whether an airspace change is
      controversial, and do a better job of documenting its meetings with
      Congress and the public. FAA officials agreed they should have been clear-
      er in their presentations to Congress, including exactly what the airspace
      changes would entail.

                        IG Testifies Before 9–11 Commission
      May 22
         The Inspector General testified before the National Commission on
      Terrorist Attacks upon the United States regarding the state of aviation securi-
      ty prior to the September 11 terrorist attacks, actions taken to improve aviation
      security since then, and areas that still require attention. He reported that avi-



                                                                                           Audits, Investigations, Testimony   9
Complete book5.qxd   3/22/2004    12:32 PM      Page 10




                                                     ation security is much tighter now, citing significant weaknesses in the aviation
                                                     security system before 9–11.
                                                        The Inspector General cautioned that the passage of time from a terrorist
                                                     event may lead to complacency and pressures to relax security. He recom-
                                                     mended gathering intelligence on homeland and transportation security; inte-
                                                     grating explosive-detection systems into airport baggage-handling systems;
                                                     investing in research and development for more effective screening equipment;
                                                     implementing an aggressive covert testing program; establishing screener-
                                                     performance standards; and improving cargo security. Secretary Mineta and
                                                     former FAA Administrator Jane Garvey also testified at this set of hearings.
                                                        OIG conducted oversight of aviation security until jurisdiction was trans-
                                                     ferred from DOT to the Department of Homeland Security in March 2003.

                                                                           Airline Industry Metrics Update
                                                     July 2
                                                        Our fourth update of airline industry metrics found the airline industry is
                                                     facing its greatest challenge since deregulation, as a result of the weakness in
                                                     business travel that has persisted since early 2001, the September 11 terrorist
                                                     attacks, and the war in Iraq.

                                                        The metrics illustrate important trends, including:
                                                        ■ The continuing weakness in passenger demand, coupled with the lack of
                                                     full-fare business travelers and the drop in fare prices, continue to hamper the
                                                     industry’s ability to increase yields and return to profitability.
                                                        ■ The larger network airlines have cut service or shifted capacity to their
                                                     regional affiliates or both — leading to low-fare and smaller airlines expanding
                                                     their domestic market shares.
                                                        ■ While the number of flights is approaching pre-September 11 levels, the
                                                     average size of the aircraft being flown has decreased due to the rapid intro-
                                                     duction of regional jets and the retirement of larger aircraft.
                                                        ■ The smallest airports (nonhub) continue to experience a disproportion-
                                                     ate reduction in air service.

                                                        The metrics were developed as a way to monitor airline industry trends relat-
                                                     ing to domestic system demand and capacity, performance, finances, and air
                                                     service at small airports. These metrics provide decision makers with past, pres-
                                                     ent, and future indicators of domestic service levels and general state of the air-
                                                     line industry.




    10               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:32 PM   Page 11




                 Audits, Investigations, Testimony

                     av i at i o n

                      Investigation into Allegations Concerning
                        MWAA Duty-Free Concession Contract
      September 5
         We issued an investigative report regarding a contract awarded to operate
      duty-free shops at Washington Dulles International Airport. At the request of
      Rep. Joseph Pitts, we examined whether the Metropolitan Washington
      Airports Authority (MWAA) complied with
      contracting and competition procedures in
      awarding the contract to Duty Free Americas
      (DFA) in April 2003. Separately from Rep.
      Pitts’s request, the Nuance Group, which had
      unsuccessfully competed for the concession
      contract, raised concerns about MWAA’s certifi-
      cation of Concourse Gift and News, Inc., as a
      disadvantaged business enterprise (DBE), ques-
      tioning whether the owner was socially and eco-
      nomically disadvantaged. Concourse Gift and
      News is DFA’s partnering DBE.
         We found no evidence that MWAA failed to
      comply with its contract-competition proce-
      dures in selecting DFA. However, we recommended that DOT: (1) prescribe          OIG investigated a contract to operate duty-free
                                                                                       shops at Dulles International Airport.
      a personal net worth limit for the owner of an airport concession DBE; (2)
      establish clear criteria by which the presumption of economic disadvantage can
      be rebutted; and (3) consider instituting terms for DBE firms and their own-
      ers to graduate from DBE eligibility.

                     FAA’s Management and Controls over MOUs
      September 12
         We issued an audit report on FAA’s management and controls over nation-
      al, regional, and local memorandums of understanding (MOUs) with the
      National Air Traffic Controllers Association (NATCA). We found that FAA
      managers and NATCA representatives had entered into between 1,000 and

                                                                                       Audits, Investigations, Testimony 11
Complete book5.qxd   3/22/2004    12:32 PM      Page 12




                                                     1,500 MOUs outside the national collective bargaining agreement. Those
                                                     agreements covered a wide range of issues, such as implementing new technol-
                                                     ogy, changes in working conditions, and — as a result of personnel reform —
                                                     compensation, bonuses, and benefits.
                                                        While many of the agreements serve legitimate purposes, we found some
                                                     that had significant cost and operational impacts on FAA. For example, as
                                                     part of a new pay system for air traffic controllers, FAA and NATCA entered
                                                     into a national MOU that gave controllers an additional cost-of-living adjust-
                                                     ment. As a result, controllers at 111 locations receive between 1 and 10 per-
                                                                                                   cent in “controller incentive pay,”
                                                                                                   in addition to Government-wide
                                                                                                   locality pay. In FY 2002, the cost
                                                                                                   for this additional pay was about
                                                                                                   $27 million.
                                                                                                      Despite the cost implications,
                                                                                                   at the time of our review, FAA
                                                                                                   management did not know the
                                                                                                   exact number or nature of
                                                                                                   MOUs, there were no established
                                                     procedures for approving them, and their cost impact on the budget had not
                                                     been analyzed. Because of the significant control weaknesses, we briefed the
                                                     FAA Administrator about our concerns in January 2003 — two months after
                                                     initiating this review.
                                                        FAA has moved expeditiously to address the control weaknesses. It has
                                                     implemented new policies for the MOU process, identified existing MOUs that
                                                     are problematic or costly, and completed negotiations with NATCA to address
                                                     several agreements as part of a two-year extension of the national collective bar-
                                                     gaining agreement.


                                                                      IG Issues Report, Testifies on Safety of
                                                                          FAA’s Contract Tower Program
                                                     September 24
                                                        The Inspector General (IG) testified before the House Transportation and
                                                     Infrastructure Subcommittee on Aviation regarding the safety, cost, and oper-
                                                     ational metrics of FAA visual flight rule (VFR) towers — both those operated
                                                     by contractors and those staffed with FAA controllers.
                                                        In terms of safety of operations as measured by operational errors/devia-
                                                     tions, the IG testified that contract VFR towers and FAA-staffed VFR towers
                                                     fell well below FAA’s FY 2002 average of 6.70 operational errors for every 1
                                                     million operations handled. In FY 2002, the contract towers had eight opera-
                                                     tional errors/deviations, a rate of 0.49 incidents per million operations han-


    12               Semiannual Report to Congress
Complete book5.qxd   3/22/2004    12:32 PM    Page 13




                       FAA Modernization Efforts

        O     IG audit reports issued during the reporting period identified a num-
              ber of major problems in FAA’s modernization efforts that the agency
         needs to address. These key issues include reversing trends in cost growth,
         schedule slips, and performance shortfalls with major modernization proj-
         ects, as well as effectively managing new billion-dollar projects that are
         just getting started.
           During the reporting period, we released two follow-up reports on
         FAA’s modernization efforts and one audit of the Operational Evolution
         Plan, FAA’s blueprint for enhancing National Airspace capacity over the
         next decade. They are:
         ■ our second annual report regarding the status of FAA’s major acquisi-
         tions projects, issued on June 27;
         ■ our third audit report on STARS (the Standard Terminal Automation
         Replacement System), issued September 10; and
         ■ an audit report issued on July 23 that examined 12 major initiatives in
         the Operational Evolution Plan. This audit evaluated new runways, new
         technologies, and air traffic procedures and was undertaken at the
         request of Rep. Don Young, chairman, and Rep. Jim Oberstar, ranking
         member of the House Committee on Transportation and Infrastructure.


         MAJOR ACQUISITIONS
           In June, we issued a status report on 20 of FAA’s major acquisitions,
         which are expected to enhance the safety, security, and capacity of the
         National Airspace System. While we noted that progress has been made
         with some efforts, such as Free Flight Phase 1, problems with major acqui-
         sitions persist and include many projects that do not have reliable cost,
         schedule, and performance parameters. For example, of FAA’s 20 major
         acquisitions, 13 experienced schedule slips of one to seven years and 14
         had cost growth of about $4.3 billion, which is more than one year’s
         appropriation for FAA facilities and equipment.
           We also noted there are billion-dollar projects just getting started that
         require sustained management attention. One is the En Route
         Automation Replacement Modernization which, at an estimated cost of
         $2.1 billion, will provide new software and hardware for facilities that con-
         trol high-altitude traffic in the United States. Another is the Next
         Generation Air/Ground Communications, a complex effort to replace all
         existing air-to-ground communications with digital systems in the National
         Airspace System. The current cost estimate of $986 million to revamp com-
         munications reflects only the first stage of a larger program.



                                                                                         Audits, Investigations, Testimony 13
Complete book5.qxd       3/22/2004     12:32 PM      Page 14




            To control costs, we recommended that FAA update              sites. We reported that limiting STARS procurement to 73
         the cost, schedule, and performance baselines of sever-          sites could result in savings of at least $221 million in over-
         al projects, including at a minimum STARS, Integrated            all procurement costs. FAA agreed with our recommen-
         Terminal Weather System, Local Area Augmentation                 dations and is rebaselining the cost and schedule of the
         System, and Wide Area Augmentation System.                       entire STARS effort. Recently, Congress directed us to
                                                                          review and validate the cost and schedule information
         STARS                                                            FAA is using to make decisions on how to move forward
            We issued an audit on                                         with the program.
         STARS in September. FAA
         selected STARS in 1996 as                                        OPERATIONAL EVOLUTION PLAN
         the centerpiece of its strat-                                      OEP is an important effort because it will shape FAA
         egy to replace aging con-                                        and industry investments over the next decade. In our
         troller and maintenance workstations and computer soft-          audit, we noted that since FAA introduced the plan, the
         ware and processors at 172 air traffic control terminals.        aviation industry has undergone dramatic changes —
            We found that STARS is not the same program that was          the demand for air travel has decreased, major network
         planned eight years ago, and as a result, FAA needs to reeval-   carriers are in financial distress, and Aviation Trust Fund
         uate cost estimates and consider other alternatives to deploy-   revenues have declined sharply.
         ing STARS to all terminal facilities.                              While FAA had made progress with OEP initiatives,
            Cost estimates for acquiring STARS have nearly dou-           we found that the agency still faces considerable work
         bled since 1996 from $940 million to $1.69 billion, and          to set priorities and make the plan executable. For
         the vast majority of systems have not yet been procured          example, realistic estimates of what the plan will cost
         and deployed. Over the past five years, due to delays in         FAA and industry did not exist; key projects had experi-
         the STARS program, FAA deployed Common Automated                 enced cost, schedule, and performance problems; and
         Radar Terminal System (Common ARTS) hardware and                 the plan was not linked to the agency’s $14 billion budg-
         software to 141 terminal facilities, or over 75 percent of       et. In addition, much work remained to quantify the
         the facilities where FAA intends to deploy STARS.                benefits of OEP initiatives and determine how to move
            To complete the STARS deployment for $1.69 billion,           forward with new technologies that will require air-
         FAA is counting on negotiating a fixed-price contract to         space users to equip with new systems which could cost
         reduce unit costs. STARS program officials recently asked        as much as $11 billion.
         FAA’s senior decision makers to approve a new cost                 We recommended that the agency: (1) determine how
         baseline of $1.69 billion without considering alterna-           much the plan will cost and link the plan to the agency’s
         tives that could bring significant savings. However, sen-        budget to help decision makers set priorities; (2) deter-
         ior FAA officials asked the MITRE Corporation to vali-           mine how to move forward with systems that require air-
         date STARS cost estimates before they would approve a            space users to purchase and install new technologies; (3)
         new cost baseline.                                               maximize benefits associated with new procedures, air-
            We recommended that FAA reevaluate STARS’s total              space changes, and systems currently on aircraft; and (4)
                                    cost and consider alternatives,       quantify benefits with OEP projects and use metrics to
                                    such as expanding the use of color    assess whether initiatives are having the desired impact
                                    displays with Common ARTS,            on capacity. FAA officials generally agreed with our
                                    which are already in place at 141     analysis and recommendations. ■




    14                    Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:32 PM   Page 15




                 Audits, Investigations, Testimony

                     av i at i o n

        dled. The 71 FAA-staffed VFR towers had 38 operational errors/deviations, a
        rate of 2.70 incidents per million operations handled.
           Neither the FAA contract nor the FAA-staffed VFR towers has a system for
        automatically reporting operational errors. As a result, FAA cannot
        be sure that all operational errors are reported at either FAA-staffed
        towers or contract VFR towers. An operational error occurs when
        an air traffic controller does not maintain minimum FAA separation
        requirements between aircraft. An operational deviation occurs
        when a controller allows an aircraft to enter airspace managed by
        another controller without prior coordination and approval.
           In terms of costs, the IG testified that in FY 2002, contract tow-
        ers cost, on average, about $917,000 less to operate annually than
        comparable FAA-staffed VFR towers. The difference in costs is
        primarily due to two reasons: (1) FAA-staffed towers have more
        controllers than contract towers; and (2) FAA-employed con-
        trollers generally have higher salaries than contract controllers.
           In terms of operations, the Inspector General testified that while
        most contract towers are low-activity facilities (nearly half handle
        fewer than 20 aircraft operations per hour, on average), there are
        towers in both groups that have comparable operations. For example, 30 FAA-
        staffed VFR towers and 74 contract towers handle between 20 and 40 aircraft
        operations per hour.
           By way of contrast, the 71 FAA-staffed VFR towers are not a homogeneous
        group. They have significant differences in the volume of air traffic they control,
        the number and types of users they serve, and the complexity of the airspace they
        manage. For example, some of these towers handle an average of 20 aircraft
        operations per hour and others more than 100 aircraft operations an hour.

                            Air Carrier Compensation Claims
        September 30
          We issued a report summarizing our reviews of the financial and operational
        data that 19 air carriers submitted to support the compensation claims they filed



                                                                                              Audits, Investigations, Testimony 15
Complete book5.qxd   3/22/2004    12:32 PM      Page 16




                                                     under the Air Transportation Safety and System Stabilization Act. We report-
                                                     ed that, based on our reviews, the Department saved about $29 million and
                                                     could realize additional savings of about $11 million after it completes dis-
                                                     cussions with three more air carriers. We previously provided the results of our
                                                     reviews to the Office of the Secretary in a series of individual reports. The
                                                     reviews were part of our efforts to assist the Department in determining allow-
                                                     able compensation for air carriers.




    16               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 17




                 Audits, Investigations, Testimony

                 m a r i t i m e

                       IG Testifies on MARAD Title XI Program
        June 5
          The Inspector General testified before the Senate Commerce, Science, and
        Transportation Committee regarding significant reforms needed in the
        Maritime Administration’s Title XI Loan-Guarantee Program, based on our
        March 2003 audit report.

           The Inspector General recommended that MARAD:
           ■ require rigorous analysis of the risks that arise from modifying loan-
        approval criteria and, to mitigate those risks, impose compensating provisions
        on the loan guarantee such as more collateral or higher equity contributions
        from the borrower;
           ■ establish an external review process as a check on its internal loan-
        application review;
           ■ establish formal processes for continuously monitoring both the finan-
        cial condition of borrowers and the physical condition of guaranteed assets
        over the terms of loan guarantees.

           Before it can access $25 million in FY 2003 appropriated funds, MARAD
        is required by law to implement the
        recommendations in our report, and
        we must certify to Congress that our
        recommendations have been met. The
        Inspector General testified that we are
        working with MARAD to analyze the
        new processes it has proposed, and we
        will audit MARAD’s compliance with
        these once they are in use. MARAD
        Administrator Capt. William Schubert
        and General Accounting Office
        Managing Director Thomas McCool
        also testified.


                                                                                         Audits, Investigations, Testimony 17
Complete book5.qxd   3/22/2004     12:33 PM      Page 18




                                                                          OIG Comments on Lake Express
                                                                        Title XI Loan-Guarantee Application
                                                      June 23
                                                         We issued a memo to the MARAD Administrator regarding the December
                                                                  2002 application of Lake Express, LLC for a Title XI loan guarantee
                                                                  to build a high-speed ferry to provide service on Lake Michigan. We
                                                                  are required by Congress to certify that the recommendations in our
                                                                  March 2003 audit report were implemented before MARAD can
                                                                  access $25 million. Although this certification applied to the newly
                                                                  appropriated funds, Secretary Mineta decided that it would be pru-
                                                                  dent if MARAD adhered to OIG’s recommendations on any new
                                                                  commitments, even those funded by prior-year appropriations, such
                                                                  as the Lake Express application. We also received a congressional
                                                                  request to review the application.
                                                                     We found in the Lake Express application no modifications to the
                                                                  loan-guarantee approval criteria that would require MARAD to
                                                                  impose compensating provisions to mitigate added risk. In addition,
            Lake Express ferry under construction
                                                      consistent with our recommendation, MARAD retained an independent finan-
                                  in Mobile, AL.
                                                      cial analyst to review the Lake Express business plan and capitalization, and a
                                                      market analyst to review their market research and demand forecast. Lake
                                                      Express applied for a $14.5 million loan guarantee, and its owners committed
                                                      to invest $8.5 million in equity. The equity will be used for boat construction
                                                      ($4.4 million) and initial start-up costs and working capital ($4.1 million).




    18                Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 19




                  Audits, Investigations, Testimony

       h i g h way, t r a n s i t,
               and rail
           Foreman Jailed and Fined for Approving Inferior Roadwork
       April 7
          David Nielsen, a foreman with Boise Paving & Asphalt of Boise, ID, was
       fined $5,000 and ordered to serve five years in prison by an Idaho
       State Court judge in Boise for attempting to pass off inferior road-
       work on state and Federal-aid construction projects. Nielson was
       responsible for ensuring the quality of his crew’s work as partially
       determined by a profilograph, an instrument that measures the
       acceptability of road-surface tolerances, such as surface smoothness.
       When he found unacceptable tolerances on a newly paved surface,
       he would submit a reading from an acceptable surface instead of
       ordering workers to grind off the asphalt and redo the work. He did
       this repeatedly on roads involving over half a dozen state and
       Federal contracts to the Idaho Department of Transportation and Ada County       Nielsen would not redo inferior roadwork, as
                                                                                        partially determined by a profilograph
       Highway District. The company fired Nielsen when OIG began its investiga-        (example seen here).
       tion in January 2001.



                 Washington, DC, Road-Paving Firm Fined $900,000
                              in Bribery Conspiracy                                     Fort Myer Construction pleaded guilty to
                                                                                        conspiracy to bribe employees of the DC
       April 8                                                                          Department of Public Works.
          Paving contractor Fort Myer Construction Corporation of Washington,
       DC, was ordered by a U.S. District Court judge in Washington, DC, to pay
       $900,000 in fines and restitution for conspiracy to bribe employees of the
       District of Columbia Department of Public Works. The company pleaded
       guilty in March 2003. So far, this ongoing investigation of OIG and the
       Federal Bureau of Investigation (FBI) has found three road-paving compa-
       nies, two of their owners, and nine public works employees guilty of paying
       or receiving cash bribes in various fraud schemes.
          Fort Myer’s criminal acts involved a scheme to create false asphalt tickets
       and bribe employees of the DC Department of Public Works to accept the
       fraudulent tickets. As a result of the scheme, Fort Myer was paid under


                                                                                        Audits, Investigations, Testimony 19
Complete book5.qxd   3/22/2004     12:33 PM       Page 20




                                                     Federal-aid contracts for materials the company never provided. Fort Myer
                                                     pleaded guilty to fraud on six Federal-aid road construction contracts in the
                                                     District of Columbia with a value of $7,313,530.

                                                                   IG Testifies Regarding the Future of Intercity
                                                                        Passenger Rail Service and Amtrak
                                                     April 29
                                                        The Inspector General testified on the future of intercity passenger rail and
                                                     Amtrak before the Senate Commerce, Science, and Transportation Committee.
                                                     He discussed options to reconfigure Amtrak’s long-distance trains to comple-
                                                     ment a rail network built around higher speed/higher frequency corridors;
                                                     greater state participation in determining service attributes and covering oper-
                                                     ating losses; and a stable, long-term Federal funding source for capital grants.
                                                     Then-Deputy Secretary Michael Jackson and Amtrak President and CEO
                                                     David Gunn also testified.


               Inspector General Mead testified
                                                            Brooklyn Jury Convicts Three Movers for Defrauding Public
               regarding options to reconfigure      May 9
               Amtrak’s long-distance trains
               before the Senate Commerce               Three men who head five Brooklyn, NY, moving companies were convicted
               Committee.                            for their part in a conspiracy to extort money from their customers. The con-
                                                     viction came from a jury following a six-week trial in U.S. District Court in
                                                     Brooklyn. The defendants, Avinoam Damti, Ofer Yosef, and Shlomo
                                                     Hababa, all residents of the New York metropolitan area, lured customers who
                                                     were moving interstate by giving artificially low estimates, only to later hold
                                                     their possessions hostage until large additional payments were made. The
                                                     men controlled Jacoby Moving and Storage, Inc.; Official Moving and Storage;
                                                     On-Time Van Lines; Newstart Moving, Inc.; and Starving Students Moving
                                                     and Storage. The three were charged in April 2002. The men are scheduled for
                                                     sentencing in October 2003. OIG and the FBI conducted the investigation,
                                                     with assistance from FMCSA.

                                                                  Follow-Up Audit of FMCSA’s Implementation of
                                                                    NAFTA’s Cross-Border Trucking Provisions
                                                     May 16
                                                        In response to a congressional mandate, OIG reviewed operations at the
                                                     U.S.-Mexico border to verify completion of eight safety requirements needed
                                                     before cross-border trucking can begin. Our follow-up to our previous audit
                                                     found that FMCSA “substantially completed” the actions necessary to meet
                                                     requirements of the North American Free Trade Agreement (NAFTA) to hire
                                                     and train inspectors, establish inspection facilities, and develop safety processes
                                                     and procedures for Mexican long-haul motor carriers.

    20               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 21




                 Audits, Investigations, Testimony

       h i g h way, t r a n s i t,
               and rail
          While FMCSA has largely complied with the NAFTA safety requirements,
       other issues have affected opening of the border to long-haul traffic. On
       January 16, 2003, the U.S. Court of Appeals for the Ninth Circuit in Public
       Citizen v. DOT set aside three FMCSA regulations, effectively preventing
       FMCSA from conducting safety
       audits and compliance reviews
       until completion of an environ-
       mental impact statement and
       Clean Air Act analysis. Depart-
       ment officials stated that the
       delay might extend up to 24
       months if an environmental
       impact statement is prepared, or
       longer, if environmental mitigation measures are required.
          The Administration filed a petition with the Supreme Court on September 8,
       seeking a review of the Mexican truck decision. FMCSA on August 26 published
       a notice of intent to prepare an environmental impact statement and an evalua-
       tion of the air quality impacts under the Clean Air Act.

          In our audit, we recommended that FMCSA:
          ■ use border safety auditors and investigators to conduct safety audits, as
       appropriate, in order to implement the new entrant program until the border
       opens. The new entrant program establishes minimum requirements for new
       motor carriers to ensure they are knowledgeable about Federal safety standards;
          ■ monitor dedicated inspection, out-of-service, and office spaces at com-
       mercial crossings to ensure sufficient inspection facilities are available;
          ■ assess crossings where passenger buses are expected to enter the United
       States;
          ■ provide refresher training for Federal and state inspectors.




                                                                                         Audits, Investigations, Testimony 21
Complete book5.qxd      3/22/2004      12:33 PM      Page 22




                                                                                                         Oversight of the Cost Recovery Program of the
                                                                                                                 Central Artery/Tunnel Project
                                                          May 21
                                                             In response to a request from Rep. Don Young, Chairman of the House
                                                          Committee on Transportation and Infrastructure, and Rep. Michael Capuano,
                                                                          we reviewed efforts by FHWA and the Central Artery/Tunnel
                                                                          Project in Boston to recover project payments for change orders




                                                                   Photo courtesy of the Central Artery/Tunnel
                                                                          caused by errors or omissions by design and consulting contrac-
                                                                          tors. In order to prevent delays and related cost increases, the
                                                                          project approves change orders and pays the construction con-
                                                                          tractor before determining whether a design error caused the
                                                                   Project, www.Big Dig.com
                                                                          change. If a review determines that the change order corrected
                                                                          a design error or omission, the project can recover some of these
                                                                          costs from the design contractor.
                                                                             We reported that: (1) past efforts have not resulted in sub-
                                                                          stantial recoveries — eight years of work yielded only $30,000
    OIG oversaw efforts by FHWA and the Central
                                                          in recoveries from a single consultant; and (2) efforts have not been timely —
    Artery/Tunnel Project in Boston (pictured here)
    to recover costs for change orders caused by errors   76 items have been under review from two to seven years. We also reported
    or omissions.                                         that adequate controls are important to ensure that costs are recovered when
                                                          appropriate and to assure taxpayers that the process is credible. The parties
                                                          involved, including the Governor’s office, need to agree on a proper gover-
                                                          nance framework and an appropriate review methodology.
                                                             We plan to monitor efforts by FHWA, the project, and several state entities
                                                          to strengthen and revise the cost recovery program and to resolve cost recov-
                                                          ery items.

                                                                                                                 Trucking Supervisor Admits Role in
                                                                                                                      Bribes-for-Jobs Scheme
                                                          May 22
                                                             Frank Catanzarite, a former supervisor for Watkins Truck Line, Lyons, IL,
                                                          pleaded guilty in U.S. District Court in Chicago to taking $10,000 in bribes
                                                          from unqualified commercial drivers who were seeking work from Watkins.
                                                          Catanzarite also acknowledged assisting John Nowak, a former safety supervisor
                                                          for Watkins, in fraudulently completing test score sheets for numerous inde-
                                                          pendent truck drivers.
                                                             Catanzarite and Nowak recruited non-English-speaking individuals to
                                                          obtain CDLs issued in Florida. In exchange for cash payments, a Florida third-
                                                          party tester passed the applicants on the skills portion of the driving test with-
                                                          out testing if they could drive a truck. Catanzarite and Nowak then gave them
                                                          jobs working for Watkins in Lyons in exchange for bribes. Catanzarite accept-


    22                   Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 23




                  Audits, Investigations, Testimony

       h i g h way, t r a n s i t,
               and rail
       ed between $500 and $2,000 per driver, and he gave Nowak between $100
       and $200 for each driver. In 1998, one of the drivers, Adem Salihovic, trig-
       gered a 74-vehicle pileup in California that killed two people and injured 51.
       Catanzarite was scheduled for sentencing in December. Nowak was also found
       guilty of mail fraud and fined in December 2002.

                     Seven Sentenced, Seven More Plead Guilty in
                      Southern Florida Household Goods Cases
       June–September
          Of 74 individuals in Miami, FL, charged in March 2003 with cheating
       unsuspecting customers out of hundreds of thousands of dollars during house-
       hold goods moves, seven were sentenced and seven more pleaded guilty dur-
       ing the reporting period. Six employees of Elite Van Lines of West Palm Beach
       and one employee of Majesty Moving & Storage of Miami were sentenced to
       a total of three years and four months in prison and ordered to pay more than
       $149,000 in restitution. Charges included conspiracy to commit extortion,
       wire and mail fraud, and falsifying bills of lading. Two additional Elite employ-
       ees, including the former owner, are fugitives believed to be residing in Israel.
          Four of the seven who were sentenced have been turned over to immigra-
       tion authorities for deportation to their native Israel or will have to surrender
       for deportation after completing their prison term.
          Seven former Majesty employees who worked as drivers, foremen, and sales
       representatives, pleaded guilty in U.S. District Court in Miami to conspiracy to
       commit extortion, wire fraud, and falsifying bills of lading. They are awaiting
       sentencing.
          The defendants’ scheme involved giving customers low-ball moving esti-
       mates, inflating the charges once the household goods were loaded, and then
       withholding the possessions from delivery until the customer paid the inflat-
       ed charges. These cases resulted from an undercover operation that brought
       charges against 16 companies in southern Florida that victimized 424 cus-
       tomers. The investigation was conducted jointly by OIG, the FBI, and
       FMCSA.


                                                                                           Audits, Investigations, Testimony 23
Complete book5.qxd   3/22/2004    12:33 PM      Page 24




                                                                       Seattle Central Link Light Rail Project
                                                     July 7
                                                       We issued our audit report on the proposed 13.9-mile Initial Segment of the
                                                     Seattle Central Link Light Rail Project, in response to a 2002 request from the
                                                          former chairman of the House Transportation Appropriations Sub-
                                                          committee. At an estimated cost of $2.437 billion, the Initial Segment is
                                                          one of the largest transit projects in the United States; the Federal share
                                                          through FTA would be $500 million.
                                                             We found Sound Transit has significantly strengthened its proposal for
                                                          constructing the first segment in response to recommendations from our
                                                          April 2001 report on the project. In addition, we found that FTA has pro-
                                                          vided strong oversight of Sound Transit’s plans; project cost, schedule,
                                                          and funding appear to be reasonable; Sound Transit has adequately
                                                          addressed the safety issues related to operating buses and trains in the tun-
                                                          nel; and FTA’s requirements for a stand-alone system have been met.
                                                             Sound Transit’s funding for the Initial Segment faced a possible risk
                                                          from the recently passed local Initiative 776, which eliminated motor
                                                          vehicle fees and taxes above a flat $30 fee, including Sound Transit’s 0.3
                                                          percent motor vehicle excise tax. As a result, we recommended that: (1)
                                                          before the Federal grant is approved, Sound Transit’s board of directors
                                                          agrees to commit alternative local revenues to the project in case of a
                                                          funding deficit or shortfall due to loss of excise-tax revenues and related
                                                                                                   fees; and (2) Sound Transit’s
                                                                                                   finance plan be amended to reflect
                                                                                                   this commitment. FTA agreed with
                                                                                                   our recommendation, stating that it
                                                                                                   would request written agreement
                                                                                                   to our recommendations from the
                                                                                                   Sound Transit board of directors.
                                                                                                      The Sound Transit board passed
                                                     Resolution 2003–15 on July 17, in response to recommendations that call for
                                                     prompt revision of the finance plan should the motor vehicle excise-tax rev-
                                                     enues designated for the light rail project be lost or reduced after FTA approved
                                                     Sound Transit’s request for a $500 million grant agreement on October 24.
                                                     The constitutionality of Initiative 776 was upheld by the Washington Supreme
                                                     Court on October 30. Because the court’s decision did not explicitly address
                                                     the project’s bonding and funding, it is uncertain how the ruling will apply to
                                                     Sound Transit.




    24               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 25




                  Audits, Investigations, Testimony

       h i g h way, t r a n s i t,
               and rail
              Paint Contractor Admits to Stealing Government Funds
       July 22
          Michael Patatoukas pleaded guilty in U.S. District Court in Tampa, FL, to
       stealing $25,299 in Government funds over a four-year period by working as a
       paint contractor while he was receiving social security disability benefits. The
       crime was uncovered during an ongoing investigation of bridge-painting con-
       tractors on projects funded by the FHWA in Oklahoma, which involved alle-
       gations the contractors were illegally dumping toxic lead paint residue into nav-
       igable waterways. During the investigation, agents determined that Patatoukas
       had been paid social security disability benefits even though he was working.
       The charges were filed in Tampa where Patatoukas received the benefit checks.
       The investigation was conducted jointly by OIG, the Defense Criminal
       Investigative Service, Social Security Administration OIG, and the Oklahoma
       Department of Environmental Quality.

        Minnesota Construction Company Ordered to Pay $124,000 for
             Cheating Employees Out of Wages and Overtime Pay
       July 31
          Tenson Construction, Inc., was ordered by a U.S. District Court judge in
       Minneapolis to pay $115,000 in restitution to its employees for cheating them
       out of the prevailing wages and benefits required on Federal-aid highway proj-
       ects. The judge also fined the company $9,000 and sentenced it to 12 months
       probation. Company owner Paul Tendrup was sentenced to five months in jail
       and owner Bonnie Tendrup to 24 months probation. FHWA has proposed to
       debar the company from future federally funded contracts.
          A Minnesota-based firm specializing in asphalt and concrete highway con-
       struction, Tenson Construction has Federal-aid highway contracts in Iowa,
       Minnesota, Texas, and Wisconsin. An investigation by OIG, the FBI, and the
       Minnesota Department of Transportation revealed the firm had failed to pay at
       least $100,000 in overtime to its employees, because the Tendrups deliberate-
       ly recorded employees’ overtime hours as regular work hours.



                                                                                           Audits, Investigations, Testimony 25
Complete book5.qxd   3/22/2004    12:33 PM      Page 26




                                                                     Road Superintendent Pleads to Theft of
                                                                     Asphalt from Federal-Aid Road Project
                                                     August 20
                                                        Ray W. Root of Port Richey, FL, pleaded guilty in U.S. District Court in
                                                     Tampa, FL, to stealing more than $21,000 worth of asphalt millings from a
                                                     Federal-aid highway project. In 1998, Root served as a road superintendent for
                                                     Couch Construction, the prime contractor on a Florida Department of
                                                     Transportation (FDOT) resurfacing project for U.S. Highway 19 in Pasco
                                                     County. Root contracted to mill the road surface and return the millings to
                                                     FDOT. Instead, he stole a large quantity of the millings and sold them for per-
                                                     sonal profit. Asphalt millings can be mixed with new asphalt or used like grav-
                                                     el to fill potholes and cover dirt roads and driveways. Root was scheduled to be
                                                     sentenced in December 2003. The case was investigated jointly by OIG,
                                                     FDOT OIG, and the Florida Department of Law Enforcement.

                                                            Electric Supply Company and President Plead Guilty to
                                                                          Falsifying DBE Applications
                                                     September 9
                                                        L&K Electric Supply Company of Birmingham, AL, and company president
                                                     Adriene Balton pleaded guilty in U.S. District Court in Norfolk, VA, to falsify-
                                                     ing four applications submitted to the Virginia Department of Transportation
                                                     for disadvantaged business enterprise (DBE) certification. Balton admitted she
                                                     and her company committed fraud in order to win a $14.7 million contract for
                                                     socially and economically disadvantaged individuals, which was to supply elec-
                                                     trical material on a Virginia “Smart Traffic” project. Balton answered “no” in
                                                     response to an application question asking whether she or her company had
                                                     previously been denied DBE certification. OIG investigators found L&K had
                                                     been denied DBE status by Louisiana, Maryland, and Florida for a variety of
                                                     reasons, including that L&K’s business affiliation with another company
                                                     exceeded the gross revenue limit and Balton did not exercise day-to-day con-
                                                     trol over business operations.

                                                          Former Maryland Motor Vehicle Administration Employee
                                                              Receives Jail Time for Issuing Unauthorized IDs
                                                     September 18
                                                       Mellarie L. Chisholm, a former employee of the Maryland Motor Vehicle
                                                     Administration, was sentenced in U.S. District Court judge in Baltimore, MD,
                                                     to five months in jail and five months of electronic monitoring and home
                                                     detention for producing fake identification documents and for mail racketeer-
                                                                                                              (Continued on page 29)


    26               Semiannual Report to Congress
Complete book5.qxd   3/22/2004    12:33 PM   Page 27




                       Stewardship of Highway and
                            Transit Programs

        T   he Federal highway and transit programs are at one of the most impor-
            tant junctions since creation of the Interstate Highway System in the
        1950s. Authorization for the programs expired September 30, 2003, amid a
        congressional debate over where to find the money to pay for the construc-
        tion, maintenance, and improvement of our nation’s roads, bridges, tunnels,
        and transit systems.
           The Department’s SAFETEA proposal (Safe, Accountable, Flexible, and
        Efficient Transportation Equity Act of 2003), which calls for a record $247 billion
        in highway and mass transit programs through 2009, also included provisions to
        improve system performance and enhance program accountability. As
        Transportation Secretary Norman Mineta told state transportation officials
        recently, “One of the critical challenges facing the Department — in fact, facing
        state DOTs as well — is the ability to stretch existing Federal dollars to satisfy the
        increasing demands for transportation improvements. Therefore,
        effective stewardship of these vital investments is critical.”
           OIG shares the Secretary’s view and is committed to working
        with the Department to improve system performance and
        enhance program accountability. Doing this is a formidable task
        in the face of budget deficits at the Federal and state levels and
        multibillion-dollar declines in trust funds used to finance high-
        way, transit, and aviation programs.
           The Inspector General testified twice in July regarding oppor-
        tunities to control costs and improve effectiveness in Department
        programs. In his testimonies, the IG described opportunities to
        use funds more efficiently and effectively, avoid unnecessary cost increases,
        and reduce program costs, especially in the Federal highway and transit pro-
        grams.


        MAXIMIZING INVESTMENT DOLLARS
           Based on our audit and investigative work, we see a need for further
        actions in a number of key areas. These include:
        ■ Making better use of available funds. OIG found $238 million that states
        no longer needed on projects, which should have been redirected to other
        projects. Part of this amount included $54 million sitting idle for 16 years on
        a freeway project in Connecticut that was never started.
        ■ Strengthening project management. One problem we see repeatedly is
        unreliable cost estimates on major highway and transit projects. For example,
        there were significant cost-estimating problems on San Francisco’s BART (Bay

                                                                                                 Audits, Investigations, Testimony 27
Complete book5.qxd   3/22/2004    12:33 PM      Page 28




                                                     Area Rapid Transit) airport extension project. Our April 2000 report noted
                                                     project costs increased by $316 million over the initial cost estimate.
                                                     ■ Requiring finance plans for all highway projects in excess of $100 million.
                                                     Finance plans are not usually required for highway projects under $1 billion,
                                                     even though these projects can burden a state’s management resources. A
                                                     finance plan is a management tool that is vital for telling project managers
                                                     and the public how much a project is expected to cost, when it will be com-
                                                     pleted, whether adequate funding is committed to the project, and whether
                                                     there are risks to completing the project on time and within budget.
                                                       If the states are going to spend $100 million of taxpayers’ money, it is rea-
                                                     sonable to require them to develop an approved finance plan that identifies
                                                     project costs, milestones, and funding sources. The Department has incorpo-
                                                     rated this new requirement in its reauthorization proposal.
                                                     ■ Refocusing FHWA efforts on project management and financial oversight.
                                                     Today’s highway projects require skills in emerging technologies and profes-
                                                     sional expertise in financing, cost-estimating, program analysis, environmen-
                                                     tal streamlining, and schedule management. Yet, FHWA has only limited staff
                                                     devoted to these areas because its workforce is structured almost exclusively
                                                     around engineering skills that were needed more during construction of the
                                                     interstate system.


                                                     PREVENTING CONTRACT AND GRANT FRAUD
                                                       The Department also needs to take steps to detect and prevent contract
                                                     and grant fraud. OIG is investigating over 100 infrastructure projects or con-
                                                     tracts. During the last 4½ years, monetary recoveries on highway- and transit-
                                                     related fraud cases have totaled more than $80 million. Specific steps we rec-
                                                     ommended include:
                                                     ■ Using contract debarment to protect the Government’s interest against
                                                     fraud on transportation projects. When contractors are convicted of fraud,
                                                     they should be debarred from participating on future federally funded proj-
                                                     ects for an appropriate period, depending on the severity of the case and cul-
                                                     pability of the company or its corporate principals. Contractors who are
                                                     debarred are excluded from receiving prime contracts or serving as subcon-
                                                     tractors. Current regulations give FHWA wide discretion in determining
                                                     whether or not to debar convicted contractors, and contractors are allowed to
                                                     appeal debarments to FHWA at any time, even though they have been con-
                                                     victed of fraud against the Federal-aid highway program.
                                                     ■ Sharing Federal recoveries with the states. State programs are the first
                                                     ones damaged by fraud, so allowing states to share in Federal monetary
                                                     recoveries would help restore their programs and provide support for further
                                                     deterring and detection of fraud. ■



    28               Semiannual Report to Congress
Complete book5.qxd    3/22/2004   12:33 PM   Page 29




                     Audits, Investigations, Testimony

       h i g h way, t r a n s i t,
               and rail
       ing conspiracy. Chisholm accepted money for helping two undocumented
       aliens obtain Maryland identification cards. She pleaded guilty in February
       2003.

       Subcontractor Agrees to $8.7 Million in Restitution and Penalties
          for Defrauding Federal and State Transportation Projects
       September 24
          Frank S. Chuang of Wethersfield, CT, owner of two engineering and con-
       struction services companies, agreed to pay $8.7 million as part of a plea agree-
       ment and civil settlement for defrauding the Department and four state trans-
       portation agencies on numerous transportation projects. Chuang pleaded
       guilty in U.S. District Court in New Haven, CT, to submitting fraudulent
       invoices to prime contractors, representing that his companies’ employees per-
       formed specified work when they had not and inflating overhead by including
       on the payrolls people who were not employees. Chuang also pleaded guilty to
       tax evasion.
          The investigation disclosed that Chuang defrauded the transportation
       agencies of Connecticut, Rhode Island, Massachusetts, and New York of                    “Chuang defrauded
       approximately $2.7 million, which included a Federal share of $1.5 million.
       Under terms of the plea agreement and civil settlement, Chuang and his firm              the transportation
       L-C Associates together will pay $8.7 million in restitution, penalties, and
       damages, including $1.024 million in criminal restitution for fraud; $4.3 mil-       agencies of Connecticut,
       lion in Federal income taxes, penalties, and interest; and $3.4 million in civil
       damages and penalties. Total disbursement to the state agencies is expected to              Rhode Island,
       be about $2.59 million. Approximately $1 million will be paid to the Federal
       Highway Trust Fund, with the balance going to the U.S. Treasury.                     Massachusetts, and New
          FHWA suspended Chuang and his two companies from Federal contract
       work in May 2003 for the duration of the criminal proceeding. OIG led this            York of approximately
       investigation, with assistance from FHWA, the Connecticut Department of
       Transportation, IRS, and the FBI.                                                           $2.7 million.”



                                                                                           Audits, Investigations, Testimony 29
Complete book5.qxd   3/22/2004    12:33 PM      Page 30




                                                                  Follow-Up on Central Artery/Tunnel Project’s
                                                                      Owner-Controlled Insurance Program
                                                     September 30
                                                        We determined whether FHWA implemented recommendations from our
                                                     July 2002 audit regarding the recovery of excess reserves from the Owner-
                                                     Controlled Insurance Program (OCIP) of the Central Artery/Tunnel Project in
                                                     Boston. We found the project’s transfer of $273 million from the OCIP budg-
                                                     et was appropriate and that FHWA issued final OCIP guidance as recommend-
                                                     ed. The project took these actions as a result of OIG audits of the Central
                                                     Artery’s OCIP in 1999 and 2002.

                                                              NY Fuel Supplier Found Guilty of Evading $684,000
                                                                         in Federal Fuel Excise Taxes
                                                     September 30
                                                        Samuel Yakobowicz, owner of Twenty-Four Hour Fuel Corporation of
                                                     Brooklyn, NY, was found guilty by a jury in the U.S. District Court in
                                                     Brooklyn of evading payment of more than $850,000 on 2,816,125 gallons of
                                                     fuel by filing false excise tax returns. He was also convicted of obstructing an
                                                     IRS audit. Yakobowicz sold fuel under contract to the Long Island Railroad,
                                                     an FTA sub-grantee. According to the charges, he fraudulently obtained IRS
                                                     refunds on excise taxes by making it appear that diesel fuel sold to gas stations
                                                     had instead been sold to the tax-exempt railroad. It was also alleged that on
                                                     numerous occasions, rather than delivering diesel fuel to the railroad,
                                                     Yakobowicz had untaxed home heating oil delivered instead, while the delivery
                                                     tickets falsely indicated that diesel fuel had been supplied. Federal excise taxes
                                                     on motor fuel provide revenue to the Highway Trust Fund. Yakobowicz was
                                                     scheduled for sentencing in December 2003. The case was investigated by the
                                                     IRS and OIG.




    30               Semiannual Report to Congress
Complete book5.qxd   3/22/2004    12:33 PM   Page 31




                  Audits, Investigations, Testimony
           financial and
            information
            technology
            Assessment of FAA’s Cost-Accounting System and Practices                                 “After nearly seven
       June 3
          As required by Congress, we issued our third annual assessment of the ade-            years of development and
       quacy and accuracy of FAA’s cost-accounting system and practices as of
       December 31, 2002. We found that FAA’s cost-accounting system captures                       spending over $38
       overall costs, but does not accurately assign costs to specific services, facilities,
       and activities, making it ineffective. We advised FAA that it cannot function as         million, FAA expects to
       a performance-based organization without a system that complies with Federal
       cost-accounting standards. It is our opinion that FAA does not have an effec-           spend at least another $7
       tive cost-accounting system because it has not experienced consequences for
       not having one.                                                                           million to develop and
          FAA began developing its cost-accounting system in 1996, estimated at that
       time to cost about $12 million, and planned to complete the system by                       maintain the system
       October 1998. After nearly seven years of development and spending over $38
       million, FAA expects to spend at least another $7 million to develop and main-               throughout FAA.”
       tain the system throughout FAA by September 2003.
          We recommended that FAA: (1) establish a goal to implement cost-
       accounting and labor-distribution systems that comply with Federal stan-
       dards by October 1, 2004, as well as tie successful implementation to awarding
       of executive bonuses; (2) specify and implement internal controls for the Cru-
       X labor-distribution system; and (3) make FAA-wide cost and performance-
       management practices an agency priority and commit appropriate funding to
       fully establish these practices by October 1, 2004. FAA concurred with all rec-
       ommendations.

                        FAA’s Overobligation of ICE-MAN Funds
       June 12
          We performed an audit of FAA’s ICE-MAN contracts, as a result of a
       Hotline complaint alleging that FAA improperly deobligated FY 2001 funds
       for the Integrated Computing Environment Mainframe and Network (ICE-
       MAN) contracts. The complaint also alleged that FAA used FY 2001 funds
       from its facilities and equipment appropriation rather than the operations


                                                                                               Audits, Investigations, Testimony 31
Complete book5.qxd   3/22/2004    12:33 PM      Page 32




                                                     appropriation to pay bills on deobligated contracts.
                                                        Our audit found that: (1) the deobligations were inappropriate; (2) FAA
                                                     should not have used other funds to pay bills on the deobligated contracts; and
                                                     (3) FAA inappropriately used about $800,000 of FY 1999 ICE-MAN funds
                                                     belonging to other DOT Operating Administrations.
                                                        We recommended that FAA record all valid FY 2001 ICE-MAN obligations
                                                     against ICE-MAN contracts, return funds to the proper appropriation
                                                     accounts, establish who should be held accountable, and set up proper proce-
                                                     dures to account for ICE-MAN funds. We also recommended that after FAA
                                                     assures the proper accounts were charged, the agency should work with the
                                                     Department officials to determine if an Antideficiency Act violation occurred,
                                                     document the decision, and report any violations. FAA concurred with our
                                                     recommendations.

                                                           Former FAA Employee Admits Stealing Almost $7,000 in
                                                              Cash and Purchases with Government Travel Card
                                                     June 26
                                                        Former FAA employee Nicole Jenkins of Renton, WA, pleaded guilty in U.S.
                                                     District Court in Seattle to using her Government travel card for more than
                                                     $4,000 in unauthorized cash withdrawals and her Government purchase card for
                                                     almost $3,000 in unauthorized charges. She also pleaded guilty to making a false
                                                     statement during an OIG investigation. Jenkins was ordered by a U.S. District
                                                     Court judge in Seattle on October 10 to pay $6,272 in restitution for the unau-
                                                     thorized withdrawals and charges. As a result of the OIG investigation, FAA ter-
                                                     minated Jenkins from her position as a program assistant in October 2001.

                                                                  DOT Use of Government Travel Charge Cards
           “DOT revised its                          August 29
                                                        Our audit of DOT’s use of Government travel charge cards found that most
         policy . . . to address                     DOT employees do not abuse their travel card privileges. However, we identi-
                                                     fied 96 employees who did abuse these privileges by charging personal pur-
         travel-card abuses.”                        chases ($407,000 worth), withdrawing cash in excess of travel needs
                                                     ($361,000 worth), or not paying their bills on time.
                                                        In response to our audit, DOT revised its travel-card policy and initiated
                                                     other corrective actions to address travel-card abuses. For example, in June
                                                     2003, the Office of the Secretary issued policy revisions requiring the
                                                     Operating Administrations to monitor for travel-card misuse in addition to
                                                     delinquencies; set stringent limits on cash withdrawals; and provide guidance
                                                     on disciplinary actions for abuses. DOT also blocked specific categories of inap-
                                                     propriate merchants, which means Citibank will decline attempted travel-card
                                                     purchases at these merchants.


    32               Semiannual Report to Congress
Complete book5.qxd   3/22/2004    12:33 PM   Page 33




                Security of Information Technology

        D    OT maintains one of the largest information technology (IT) investments
             in the Federal government, with 630 computer systems and an annual
        budget of about $2.7 billion. A top priority for DOT in meeting the require-
        ments of the Federal Information Security Management Act (FISMA) and
        implementing the President’s Management Agenda for E-government servic-
        es is to strengthen the Department’s computer security and improve controls
        over its IT investment.


        During the reporting period, OIG issued IT audits regarding:
        ■ Department’s information security program, issued September 25, in
        response to FISMA requirements;
        ■ computer security of the Delphi financial management system, issued
        September 30;
        ■ computer security of FTA’s grant management and payments systems,
        issued September 30.


        DOT SYSTEMS SECURITY STILL A “MATERIAL WEAKNESS”
           Our annual audit found the Department’s information — security pro-
        gram remains a “material weakness,” despite the Department’s improve-
        ments. DOT IT systems support air traffic control and distribute billions of
        dollars in Federal transportation grants. System security breaches
        could have far-reaching effects on the nation’s transportation system
        and economy.
           The Department’s most noteworthy improvement was protecting
        its computer systems from attack by outsiders. However, the
        Department still has a long way to go in securing its computer systems
        from unauthorized access by more than 60,000 insiders, including
        employees, contractors, grantees, and industry associations.
           A critical control needed to reduce the insider threat is for the
        Department to conduct system security-certification reviews. Only 33
        percent of DOT’s systems had completed these reviews by September
        2003. The Department established a new performance goal to have 90
        percent of its systems certified by July 2004. Meeting this goal will require a
        significant commitment of resources, especially for FAA, which will have to
        review and certify more than 80 percent of its systems in the next nine months.
           The Department also needs to develop and test system contingency plans
        to ensure business continuity in case key computer operations are disrupted
        for an extended period. The Department has established such plans for only
        26 percent of its systems, and these are often inadequate.


                                                                                          Audits, Investigations, Testimony 33
Complete book5.qxd   3/22/2004    12:33 PM      Page 34




         Maximizing returns on IT investments is critical to       enhance the security administration function; better pro-
      implementing the President’s Management Agenda on            tect sensitive information; complete background checks
      E-government services. DOT has experienced significant       on system maintenance personnel; enhance controls
      cost overruns and schedule delays with its major IT acqui-   over system changes; and conduct a comprehensive sys-
      sitions. In FY 2003, DOT appointed a chief information       tem-recovery test. Management concurred and is taking
      officer and formed an Investment Review Board with the       corrective action.
      authority to approve, modify, or terminate major IT
      investments. To improve the cost-effectiveness of IT         FTA NEED FOR BETTER CONTROLS CITED
      investments, DOT needs to strengthen oversight by bet-         Our audit of FTA computer systems involved three sys-
      ter identifying high-risk projects for the board’s review,   tems that support the grant administration and payment
      conducting in-depth reviews of modal IT budget               process of more than $7 billion of annual FTA and FAA
      requests, and requiring the modes to share more timely       grants. The audit, conducted by KPMG LLP of
      information with the board.                                  Washington, DC, under OIG supervision, found weak-
         We recommended that the Department improve over-          nesses in security planning and management, access con-
      sight of its IT investments; further enhance network         trols, system change controls, and business continuity
      security; continue enforcing background checks of con-       planning. The three systems audited were the
      tractor employees; and enhance contingency planning to       Transportation Electronic Award Management System,
      ensure business continuity. The DOT and FAA chief infor-     Electronic Clearing House Operation System, and Delphi
      mation officers agreed with our findings and recom-          Online Transaction System.
      mendations and are working to correct deficiencies.
                                                                   The audit found that:
      BETTER SECURITY NEEDED FOR DELPHI                            ■ FTA did not properly assess security risks or perform
         Our audit found that DOT needs to enhance Delphi’s        security testing before certifying its systems as ade-
      security and controls before the system can achieve its      quately secured.
      full potential. Delphi is DOT’s new financial management     ■ Background checks of contractors and employees
      system, which cost $100 million to develop and deploy.       were generally inadequate.
      When fully implemented, it will account for over $50 bil-    ■ User access to the systems was not properly adminis-
      lion entrusted to the Department each year.                  tered; for example, some of the individuals who had
         We found that some employees could use Delphi to          access were no longer employed with the agency.
      process unauthorized payments without being detect-          ■ Management depended on a single employee to
      ed, and intruders could launch attacks as “trusted par-      maintain one system without any oversight or docu-
      ties” through unsecured network connections. We also         mented procedures.
      discovered that critical security measures had not been      ■ Contingency plans for two systems were not ade-
      implemented or enforced, system changes were not             quate and had never been tested to ensure continued
      properly tested, and contingency planning was not            operations in case of a disaster.
      adequate.                                                      Our recommendations included enhancing security
         We recommended that DOT separate the payment              planning and testing, completing background checks on
      request and approval authority for employees author-         key employees, strengthening controls on user access,
      ized to do both; limit support personnel’s access to the     increasing oversight of system changes, and testing con-
      production system used to process financial transactions;    tingency plans. FTA generally concurred with these and
      secure Delphi web sites and network connection points;       has initiated corrective actions. ■



    34               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 35




                  Audits, Investigations, Testimony

       t r a n s p o r tat i o n
              safety
                          FAA Repair Station CEO Admits to
                     Taking Dangerous Shortcuts on Jet Engines
       April 7
          Gary Key, the CEO of Key Enterprises, Inc., an FAA-certified repair station
       in Oilton, OK, pleaded guilty in U.S. District Court in Tulsa, OK, to
       falsifying FAA airworthiness-approval tags on jet combustion chambers.
       To increase profits, Key directed his employees to skip required repair
       specifications, such as applying a special hardening coating to bushings
       in fuel combustion chambers, an omission that can cause engine fires
       and explosions. Repairs were falsified for Pratt & Whitney JT8 jet
       engine combustion liners, and FAA ordered Key Enterprises to alert
       customers to potential problems. Key was fined $15,000 and ordered to
       spend eight months in jail by a U.S. District Court judge in Tulsa, OK,
       on October 2. The firm’s repair station certificate could be revoked, pending
       FAA action. OIG investigated the case jointly with the Defense Criminal
       Investigative Service and Postal Service OIG, with assistance from FAA and
       the National Aeronautics and Space Administration (NASA).

                       Convicted Felon Gets 5 Years Jail Time,
                      Must Pay $957,805 in Aircraft Parts Cases
       April 14
          Bo Baker of Dallas, TX, was sentenced in U.S. District Court in Dallas
       to five years in prison, to run consecutively with an earlier sentence, for a
       total of 9½ years of jail time without parole. She was also ordered to pay
       $957,805 in restitution. Baker pleaded guilty in November 2002 to mail fraud
       for organizing a bogus investment scheme involving nonexistent aircraft parts
       in which she tricked people into investing over $1 million. She used a signifi-
       cant portion of the illegal gains to finance her lifestyle while she was awaiting
       sentencing from an August 1999 fraud conviction involving the sale of coun-
       terfeit aircraft parts. That conviction resulted in a 56-month prison sentence
       in January 2002, and an order to pay $198,268 in restitution. At the time,



                                                                                           Audits, Investigations, Testimony 35
Complete book5.qxd   3/22/2004    12:33 PM      Page 36




                                                     Baker was president and owner of 3D Industries in Dallas, a now-defunct
                                                     FAA-certified repair station.

                                                           Aviation Repairman Fined $14,500 for Falsifying Repairs
                                                     April 18
                                                       Johnnie Lee Henry of Bethany, OK, a former aircraft repairman for
                                                                          Thunderbird Accessories, Inc. (TAI), was fined $14,500 by
                                                                            a U.S. District Court judge in Oklahoma City for falsifying
                                                                            aircraft-repair certifications. TAI and Thunderbird
                                                                          Propellers, Inc., of Bethany, OK, were found guilty in
                                                                          December 2002 of using counterfeit and unapproved parts
                                                                         in aircraft propellers and an aircraft turbocharger and certi-
                                                                    fying the repairs. They subsequently filed for bankruptcy. One of
                Henry used unapproved parts like the propellers was implicated in the crash of a private aircraft in 1994, which
                      these in aircraft propellers. resulted in a fatality.

                                                       The two firms were ordered in December 2002 to pay a combined
                                                    $423,189 in fines and $25,365 in restitution, and each was put on five years
                                                    probation. Henry voluntarily surrendered his repairman certificate to the FAA
                                                    in May 2003. OIG conducted the investigation jointly with the FBI, with
                                                    assistance from FAA.

                                                                     Illegal Foreign National Jailed 1 Year and
                                                                             Fined $30,000 for ID Fraud
                                                     May 2
                                                         Maria de los Santos was sentenced by a U.S. District Court judge in
                                                     Chicago, IL, to 12 months in jail and a $30,000 fine for her involvement in an
                                                     identification-fraud scheme. The fraud was uncovered during an Operation
                                                     Safe Road investigation of commercial driver’s license (CDL) fraud in Illinois.
                                                     An illegal foreign national from Mexico, de los Santos pleaded guilty to fraud
                                                     charges in February 2003, and admitted to earning $100,000 from 1999
                                                     through 2001 by helping illegal residents obtain false identifications. While
                                                     working at the now-defunct New Delhi Driving School, she sold fraudulent
                                                     social security cards and Mexican birth certificates to illegal residents. Using the
                                                     bogus documents, illegal residents were then able to obtain valid Illinois dri-
                                                     ver’s licenses. The investigation was conducted by the Operation Safe Road task
                                                     force, which comprises OIG, the FBI, Postal Inspection Service, IRS, and the
                                                     Illinois State Police. Operation Safe Road is an ongoing investigation of CDL
                                                     fraud in Illinois and Florida.




    36               Semiannual Report to Congress
Complete book5.qxd    3/22/2004   12:33 PM   Page 37




                                             Aviation Safety

        T   he United States operates one of the safest and most complex aviation systems in the world,
            an achievement and a responsibility shared by FAA, the air carriers, and air-
        craft manufacturers. OIG has identified maintaining this impressive safety
        record as one of the top management challenges of the Department every year
        since 1998, when we began our management challenge report.
          We issued an audit report in July on air carriers’ use of repair stations and an
        audit in April on FAA’s progress in reducing operational errors and runway
        incursions.


        FAA OVERSIGHT OF REPAIR STATIONS
          The repair-station report examined the growth in outsourcing of maintenance by major air-
        lines since 1996. While OIG has issued several audits of FAA’s oversight of airlines’ in-house main-
        tenance, this was the first audit of repair stations since 1994.
          There are about 650 foreign and 4,600 domestic FAA-certified repair stations. FAA inspectors
        are only required to conduct an annual inspection of each repair stations, although they may visit
        a repair station as part of their maintenance oversight of specific airlines. Repair stations are also
        monitored by air carrier groups and international aviation authorities. These groups, along with
        FAA, create a series of overlapping controls designed to ensure repairs are completed properly.


        Major findings in our report are summarized below:
        ■ We found that between 1996 and 2002, air carriers increased the amount they spent on out-
        sourced maintenance from 37 percent to 47 percent. The trend toward outsourcing has been large-
        ly driven by cost savings of 30–40 percent that can be realized by using these facilities where labor
        rates are lower.
        ■ Despite the increase in maintenance outsourcing, FAA concentrates its oversight of air-
        line maintenance on work performed at the air carrier’s in-house facilities. In FY 2002, FAA
        inspectors completed an average of 220 inspections of in-house maintenance procedures for
        the major carriers and only seven inspections of outsourced maintenance facilities used by
        these carriers.
        ■ Discrepancies in repair-station operations went undetected at 86 percent of the stations
        we visited. For example, we found repair stations that did not use proper aircraft parts to
        complete repairs, properly calibrate tools and equipment, maintain sufficient training doc-
        umentation on their mechanics, and correct repetitive deficiencies.
        ■ FAA does not inspect some FAA-certified foreign repair stations (despite the fact that
        they are widely used by U.S. air carriers), because other civil aviation authorities review
        these facilities on FAA’s behalf. Nevertheless, FAA has not implemented adequate oversight
        procedures for ensuring the quality of these inspections.
          We recommended that FAA obtain data to determine trends in air carriers’ use of repair sta-
        tions; determine which repair stations the carriers are using to perform maintenance; perform



                                                                                             Audits, Investigations, Testimony 37
Complete book5.qxd   3/22/2004     12:33 PM      Page 38




      more frequent, detailed reviews of the facilities air carri-      ments since 1990. In FY 2002, on average, one runway
      ers use most; and develop a documented system to share            incursion occurred each day. The most serious runway
      inspection information among FAA offices. Additionally,           incursions occurred an average of once every 10 days.
      we recommended that FAA clarify its inspection docu-                   It is important that FAA take additional actions to
      mentation requirements and take steps to ensure inspec-           further reduce the number and safety risk of opera-
      tions conducted by foreign authorities verify that FAA            tional errors and runway incursions, especially since FAA
      standards are followed. FAA concurred with our recom-             projects that air traffic operations will return to pre-
      mendations.                                                       September 11 growth patterns between 2005 and 2007.
                                                                            Our recommendations focused on the specific actions
      OPERATIONAL ERRORS AND RUNWAY INCURSIONS                          FAA needs to take to further reduce operational errors
         Our April 3 report found that operational errors and           and runway incursions, including:
      runway incursions are beginning to decline after several          ■ improving oversight of regions and facilities that do
      years of continuous increases. An operational error               not show progress in reducing operational errors;
      occurs when an air traffic controller does not ensure that        ■ implementing memory-enhancement training for
      FAA separation standards are maintained between air-              controllers;
      planes. Operational errors occur mostly in the air and can        ■ expanding the severity classification for the most seri-
      pose a very serious safety risk. A runway incursion is an         ous operational errors;
      incident on the runway that creates a collision hazard.
                                                                        ■ implementing mandatory training for controllers
         FAA’s success was due in part to the implementation
                                                                        who make multiple operational errors or moderate and
      of FAA and industry initiatives. In addition, we found
                                                                        high-rated operational errors;
      that there was a statistical correlation between the
                                                                        ■ evaluating the impact of the expanded controller-in-
      decrease in these incidents and the reduction in air traf-
                                                                        charge program on operational errors on a facility-by-
      fic operations during the period.
                                                                        facility basis;
         Despite FAA’s progress, the numbers of these incidents
      are still too high, considering the potential catastrophic        ■ implementing recommendations from its technologi-
      results of a midair collision or a runway accident.               cal reviews completed at 13 airports that had 10 or more
         In FY 2002, three operational errors occurred each day         runway incursions between 1997 and 2000.
      on average. The most serious operational errors occurred             We also recommended that FAA identify and monitor
      an average of once every eight days. In the first five            statistics on the number of operational errors by com-
      months of FY 2003, the number of operational errors               mercial, general aviation, and military aircraft. This is
      rated high risk increased from 21 to 24. In our opinion,          important in measuring the overall safety impact of
      FAA’s severity rating system understates the number of            operational errors. ■
      serious operational errors. For
      example, FAA rated one error as             Change in Operational Errors and Runway Incursions, FY 1998–2002
      moderate that was less than 12                                         NUMBER OF INCIDENTS
      seconds from a midair collision.
                                                  Incident             FY 1998         FY 2001    FY 2002   Percentage Change
          Reducing runway incursions
                                                  Operational errors      885             1,194                    +35
      has remained on the National                                                        1,194    1,061           -11
      Transportation Safety Board’s
                                                  Runway incursions       304              407                     +34
      annual “Most Wanted” list of                                                         407       339           -17
      transportation safety improve-



    38                Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 39




                 Audits, Investigations, Testimony

       t r a n s p o r tat i o n
              safety
                       Flight School Instructor Pleads Guilty to
                        Falsifying Airman Medical Application
       May 23
          Guillermo Monsalve of Plano, TX, was fined $5,000 by a U.S. District
       Court judge in Dallas for falsifying his airman medical application about prior
       DUI convictions. He pleaded guilty to the charges on May 14. Monsalve was
       a ground-school instructor at Link Aviation, a school for pilots in Addison, TX.
       In February 2003, Monsalve’s former employer Nacer Fetamia, owner of Link
       Aviation, was sentenced as a result of the same investigation for lying about a
       past DUI charge on his airman medical application. He was ordered to spend
       three months in jail and fined $2,500. The FAA has revoked Monsalve’s
       ground instructor and commercial pilot licenses.

             Georgia Tester Sentenced for Falsifying CDL Test Results
       June 4
          Grady D. Saffles, a commercial driver’s license (CDL) tester for America’s
       Driving Force in Forest Park, GA, was sentenced in U.S. District Court in
       Atlanta for falsifying CDL test results. Saffles’s actions enabled 26 CDL appli-
       cants who did not take the skills portion of the test to become licensed.
       Saffles was sentenced to six months home confinement, five years probation,
       and 200 hours community service. The State of Georgia took action against all
       holders of the fraudulent CDLs by suspending or revoking the CDLs or recall-
       ing the holders for retesting. This case was a joint investigation with the
       Georgia Department of Motor Vehicle Safety, with assistance from FMCSA.


         Medical Supplier to Plead Guilty to Shipping Unlabeled Hazmat
       June 17
          MGC Trading Corporation, Miami, FL, pleaded guilty in U.S. District
       Court in Miami to charges of willfully delivering unlabeled flammable, corro-
       sive, and poisonous chemicals. MGC sells laboratory and medical supplies,
       including chemicals used in medical laboratory work, to hospitals and medical


                                                                                          Audits, Investigations, Testimony 39
Complete book5.qxd     3/22/2004      12:33 PM     Page 40




                                                        clinics in Latin America. In June 2002, MGC, through a freight forwarder,
                                                        offered nine separate packages to Lan Chile, a foreign air carrier, for air trans-
                                                        portation to Peru. The packages were described in the air bill as general labo-
                                                        ratory supplies. During handling at Lan Chile, one of the packages broke open,
                                                        exposing its hazardous contents. Many of the bottles inside the box had haz-
                                                        mat labels affixed. Sentencing was scheduled in October 2003.

                                                                 Two Olympic Pipeline Executives Jailed in First-Ever
         Some of the hazardous chemicals that MGC
         Trading had delivered to an air carrier in
                                                                        Jail Terms in Pipeline Rupture Case
                          violation of hazmat laws.     June 19
                                                            Two Olympic Pipeline Company executives were sentenced to jail by a U.S.
                                                        District Court judge in Seattle, WA, the first jail terms ever received by pipeline
                                                        managers in a pipeline rupture case. Former Olympic Manager Frank Hopf,
                                                        Jr., of Woodlands, TX, was ordered to serve six months in prison. Former
                                                        Olympic Control Room Supervisor Ronald D. Brentson of Kent, WA, was sen-
                                                        tenced to 30 days in prison. Control Operator Kevin S. Dyvig of Buckley, WA,
                                                        was placed on probation for one year.
                                                            All three men pleaded guilty in December 2002 to criminal charges arising
                                                        from rupture of the Olympic petroleum pipeline and subsequent gasoline
                                                        explosion in Bellingham, WA, on June 10, 1999. The rupture resulted in the
                                                        release of approximately 236,000 gallons of gasoline into two nearby creeks,
                                                        where the gasoline ignited leading to three deaths and causing extensive
                                                        damage to the waters, shorelines, and other natural resources.
                                                             In December 2002, Olympic Pipeline Company and Equilon Pipeline
                                                        Company (now operated by Shell Pipeline Company) agreed to a $111 million
                                                        settlement. Under the terms of a plea agreement, the companies were ordered
            The Olympic petroleum pipeline rupture      to pay $36 million in combined fines and penalties, and agreed to undertake
     released about 236,000 gallons of gasoline into
                   two creeks, where the gas ignited.
                                                        remedial programs to inspect and improve pipelines throughout the United
                                                        States at an estimated to cost of more than $75 million. The criminal fines were
                                                        the largest ever imposed in a pipeline rupture case. The case was investigated
                                                        by OIG and the Environmental Protection Agency, with assistance from the
                                                        FBI and state and local officials.

                                                                        Pilot Impersonator Jailed for 11 Months
                                                        June 20
                                                           Shawn D. Miller was sentenced in U.S. District Court in Des Moines, IA, to
                                                        11 months in jail for forging a commercial pilot’s license and impersonating a
                                                        pilot. By dressing as an American Airlines pilot, Miller was able to travel free on
                                                        commercial flights throughout the United States from 1998 to 2001. He also
                                                        obtained access to small rental aircraft by wearing a flight suit and pretending
                                                        to be an Air Force officer.


    40                  Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM    Page 41




                  Audits, Investigations, Testimony

       t r a n s p o r tat i o n
              safety
                     Passenger Convicted of Illegal Transportion
                         of Ammonia on a Passenger Plane
       July 16
          Bernard Williams of Norwalk, CT, was convicted by a jury in U.S. District
       Court in Brooklyn, NY, for secretly transporting ammonia, a corrosive haz-
       ardous substance, on a passenger plane without declaring it. In February
       2002, Williams checked two cardboard boxes labeled “kitty litter”
       with Spirit Airlines in Fort Myers, FL, for a flight to LaGuardia
       Airport in New York City. He told at least two airline personnel
       that the boxes contained kitty litter when they contained 13 bot-
       tles of ammonia. During flight, fumes sickened about 28 passengers,
       including a seven-week-old infant who was subsequently hospitalized.
       Inspection of the cargo on landing revealed one of the ammonia bottles
       had broken. Williams’s sentencing was scheduled for January 2004.

                 Two Commercial Drivers Forfeit Their CDLs for Life,
                          Receive 6½-Year Jail Terms
       July 22
          Two Florida truck drivers, Alfredo Adan of Kissimmee and John A. Erazu of
       Orlando, lost their commercial driver’s licenses for life as part of a criminal con-
       viction for drug smuggling. The defendants were convicted on June 11, 2002,
       in U.S. District Court in Columbia, SC, for smuggling 550 pounds of mari-
       juana out of Mexico into the United States by concealing it in a shipment of
       fruit inside a tractor-trailer. The men were drivers for 24–7 Majesty, a com-
       mercial interstate carrier based in Tampa, FL. Each man was also sentenced to
       a 6½-year prison term. The case was a joint investigation of the U.S. Customs
       Service, OIG, and FMCSA.




                                                                                              Audits, Investigations, Testimony 41
Complete book5.qxd   3/22/2004    12:33 PM      Page 42




                                                             Company Manager Pleads Guilty to Falsely Certifying
                                                                        900 Fire Extinguishers
                                                     August 1
                                                        Ransom E. Moore, Jr., manager of Moore Fire Extinguisher & Fire
                                                     Protection Co. of Albany, NY, pleaded guilty in U.S. District Court in Albany
                                                     to falsely certifying that approximately 900 high-pressure fire extinguishers
                                                     had been retested in accordance with Federal regulations. Moore’s plea stems
                                                     from an investigation which found he certified the retesting of carbon dioxide
                                                     fire extinguishers in 1998 and 1999 when they were not retested. The extin-
                                                     guishers were located in schools, fire departments, a DOD facility, and busi-
                                                     nesses throughout the Albany area. Moore’s sentencing was scheduled for
                                                     November 18, 2003. This case was investigated by OIG, the FBI, and the
                                                     Defense Criminal Investigative Service, with assistance from RSPA.
                                                        RSPA is the Federal agency with jurisdiction over testing cylinders used to
                                                     hold and transport such compressed gases as oxygen, hydrogen, helium, and
                                                     argon. The cylinders must be tested at least every five years to ensure they
                                                     remain strong enough to contain pressurized gases, many of which can be
                                                     explosive.

                                                     Owner of Detector Dogs Against Drugs & Explosives Pleads Guilty
                                                                 to Illegally Shipping Explosives via Air
                                                     August 5
                                                        Russell L. Ebersole, the owner of Detector Dogs Against Drugs and
                                                     Explosives of Stephenson, VA, pleaded guilty in U.S. District Court in
                                                     Harrisonburg, VA, to charges of witness tampering and instructing an employ-
                                                     ee to ship undeclared explosives by air. Ebersole’s guilty plea resulted from a
                                                     joint OIG and Bureau of Alcohol,
                                                     Tobacco, Firearms, and Explosives
                                                     (ATF) investigation revealing that he
                                                     told an employee to ship by air a 1.4-
                                                     pound box of explosives marked as
                                                     kitchen supplies. The undeclared
                                                     shipment violated Federal law and
                                                     posed a serious risk to public safety.
                                                     Ebersole also shipped by truck a sec-
                                                     ond box of undeclared explosives
                                                     from Hagerstown, MD, to Seattle. To corroborate the lies he told ATF special
                                                     agents, Ebersole told the individual who received the ground shipment to
                                                     destroy the explosives and lie to Federal investigators. No sentencing date has
                                                     been set.


    42               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 43




                  Audits, Investigations, Testimony

       t r a n s p o r tat i o n
              safety
         In a June 2003 unrelated case, a U.S. District Court jury in Alexandria, VA,
       convicted Ebersole of defrauding the Government by contracting to provide
       explosives-detection services at Federal agencies using dogs when the dogs
       were unable to distinguish explosives.

                 Long Beach Man Fined $25,000 and Imprisoned
                        Two Years for Hazmat Dumping
       August 5
          Gary Barken, president of Barken’s Hard Chrome, Inc., in Long Beach, CA,
       was ordered by a U.S. District Court judge in Los Angeles to pay a $25,000 fine
       and serve two years in Federal prison for illegally transporting and dumping haz-
       ardous wastes. Barken’s Hard Chrome is a chrome-plating and metal-finishing
       firm that uses chemicals such as chromic acid and cadmium cyanide in its work.
       Barken was found guilty by a jury in March 2003 of transporting 40 drums of
       corrosive chemical waste in a rented truck and dumping it in the desert in
       Riverside County, CA. This case was investigated jointly by OIG and the FBI.
                                                                                                  Barken was found guilty of dumping
             Former Airtrans Recruiter Sentenced in CDL Fraud Case                                40 drums of chemical waste in the
                                                                                                  California desert.
       August 11
          Robert L. Savely, a recruiter and safety officer for Airtrans, a now-defunct
       trucking company, was sentenced in U.S. District Court in Memphis, TN, for
       making false statements regarding fraudulent commercial driver’s license appli-
       cations he helped prepare at the former Dyersburg, TN, trucking company.
       Savely instructed new commercial drivers to falsify the employment history sec-
       tion on their application in order to meet the minimum driving experience
       required by Airtrans’s insurance provider. Savely was sentenced to two years
       probation and a $750 fine. This is an ongoing joint investigation of OIG, the
       FBI, and U.S. Postal Inspection Service.




                                                                                           Audits, Investigations, Testimony 43
Complete book5.qxd   3/22/2004    12:33 PM      Page 44




                                                                  Former License Examiner Produced Fake IDs
          “Campbell, a former                        August 28
                                                         Walter R. Campbell, a former driver’s license examiner for the Maryland
           examiner for the                          Motor Vehicle Administration (MVA) in Elkton, MD, pleaded guilty to pro-
                                                     ducing false driver’s licenses for illegal foreign nationals. In exchange for vary-
      Maryland Motor Vehicle                         ing sums of money or other forms of remuneration, such as paying his electric
                                                     bill or taking him to lunch, Campbell allegedly processed about 180 license
      Administration, pleaded                        applications from 1999 through 2002 for Turks and Russians who did not have
                                                     valid immigration status. He estimated that approximately 100 Maryland dri-
      guilty to producing false                      ver’s licenses were issued due to his efforts, about 25 of them commercial dri-
                                                     ver’s licenses.
     driver’s licenses for illegal                       Campbell processed the applications without requiring proper proof of iden-
                                                     tification and legal status within the United States, and also provided answers
          foreign nationals.”                        to the written driving test. MVA canceled the illegally issued driver’s licenses
                                                     and is working to locate those individuals who obtained commercial driver’s
                                                     licenses through Campbell. The names of the illegal foreign nationals will be
                                                     provided to INS for possible action. Campbell’s sentencing date has not yet
                                                     been scheduled.

                                                                    Seven Truckers Plead Guilty to Fraudulent
                                                                             Hours-of-Service Logs
                                                     September and October
                                                       Seven truck drivers for Ontelaunee Transport Services, Inc., of Kempton,
                                                     PA, pleaded guilty in U.S. District Court in Philadelphia to falsifying their dri-
                                                            ver’s logbook. They falsified their logbooks on almost a daily basis to
                                                            hide the fact they were violating FMCSA’s hours-of-service regulations,
                                                            intended to protect the public from the danger of motor-carrier acci-
                                                            dents caused by driver fatigue. The men were indicted on July 31 with
                                                            the company dispatcher and the company. Trial dates have not been set
                                                            for the dispatcher and the company, nor have sentencing dates been
                                                            determined for the seven truckers.




    44               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 45




              Other
         Accomplishments



      T
               his section comprises significant accomplishments of OIG staff that are
               not included in the legal reporting requirements of the Inspector
               General Act.




                                                                                                    Photo courtesy FAA
       STARS COST ESTIMATES
           During our review of FAA’s STARS program, we questioned the credibili-
       ty of the program’s cost estimates and expressed concern that program officials
                                                                                                                         STARS workstation in operation.
       had not complied with FAA’s policy to obtain an independent cost estimate
       before requesting a new cost baseline. In response, program officials request-
       ed two independent reviews of STARS costs before they proceeded with a new
       cost baseline. (April)

       $59 MILLION SAVED ON WILSON BRIDGE
          Maryland officials for the Woodrow Wilson Bridge proj-
       ect outside Washington, DC, reversed a previous decision
       concerning an engineering proposal, thereby saving the
       project $59 million. In 2002, Maryland officials rejected a
       proposal to change from one type of girder to another
                                                                     Central Communications Group




       because they questioned the plan’s feasibility and cost. We
       reviewed the proposal, and at our request, FHWA advised
       the state to more objectively re-examine the rejected pro-
       posal, which project officials subsequently accepted. (May)

       STRONGER OVERSIGHT ADDED TO SAFETEA
          In response to our suggestions for strengthening oversight                                                          The Woodrow Wilson Bridge.

       of major highway projects, the Department proposed monitoring the effective
       and efficient use of Federal-aid funds in its reauthorization proposal, “Safe,
       Accountable, Flexible, and Efficient Transportation Equity Act of 2003
       (SAFETEA).” The proposal includes requirements for FHWA to establish min-
       imum cost-estimating standards and prepare financial plans for projects estimat-
       ed to cost $100 million or more; requires mandatory debarments for any con-
       tractor or subcontractor convicted of fraud in a federally funded highway or
       transit project; and requires sharing Federal monetary judgments from fraud in
       highway or transit programs with the affected state or local transit agency. (May)

                                                                                                                                                      45
Complete book5.qxd   3/22/2004    12:33 PM     Page 46




                                                  ASSISTING THE 9–11 COMMISSION
                                                     OIG provided information to the National Commission on Terrorist Attacks
                                                  Upon the United States regarding the state of aviation security before
                                                  September 11, 2001, to help Commission staff better understand the com-
                                                  plexities of the aviation security system and its known vulnerabilities before the
                                                  attacks. The information included FAA’s policies, procedures, programs, sys-
            Government agent performs
                                                  tems, and technologies used for screening passengers and their checked and
            security check on airplane.
                                                  carry-on baggage, and for airport-access control and cargo security, and proce-
                                                  dures for passenger prescreening. (May)

                                                  UNSECURED CONNECTIONS TO DOT NETWORKS
                                                     OIG helped the Department identify 200 unsecured connections (dial-up
                                                  modem) to DOT networks at headquarters and in the field, which the
                                                  Department subsequently terminated. These network connections created vul-
                                                  nerabilities that could have allowed non-DOT entities to bypass firewall secu-
                                                  rity and gain unauthorized access to DOT computer systems. (May and June)

                                                  SAFETY ADVISORY ISSUED
                                                      An OIG investigation prompted RSPA to publish a safety notice in the
                                                  Federal Register, advising that ABM Fire Equipment of Milford, NY, may have
                                                  been stamping high-pressure cylinders that
                                                  contain oxygen with the DOT retester iden-
                                                  tification number of another firm. The cylin-
                                                  ders may not have been retested and visual-
                                                  ly inspected as required to ensure they
                                                  remain strong enough to contain pressur-
                                                  ized oxygen gas, which can be explosive.
                                                  The notice advised that ABM allegedly had
                                                  been testing high-pressure cylinders for
                                                  many years, including for many local fire
                                                  departments. Some of these cylinders
                                                  included fire extinguishers, firefighters’
                                                  scottpaks (breathing apparatus tanks), and
                                                  the tanks used to fill the scottpaks. RSPA
                                                  also sent the notice to customers of ABM. (June)

                                                  UNAUTHORIZED CONTRACT VEHICLES TERMINATED
                                                     Based on an April 2002 OIG audit, DOT terminated 435 IT service-pro-
                                                  curement contracts awarded under two procurement programs and was able to
                                                  put $37.5 million to better use. A former DOT center, TASC, created two con-
                                                  tract vehicles — Value Added Niche Information Technology Services (VAN-
                                                  ITS) and Specialized Technical and Technology User Services (STATUS) —
                                                  without proper approval and used the contracts to provide services to outside


    46         Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 47




            Other
       Accomplishments


       agencies without obtaining full reimbursement. We recommended that DOT
       stop using the contracts to serve outside agencies unless explicitly authorized
       by the Deputy Secretary. The Deputy Secretary subsequently decided to ter-
       minate all VANITS and STATUS contracts. Of those, 375 contracts, which
       each guaranteed a minimum of $100,000 in work, had not been awarded.
       Terminating the contracts enabled Government customers, including DOT, to
       use the $37.5 million on authorized IT contract vehicles. (July)

       ISRAEL AIDED IN CDL MEDICAL QUALIFICATIONS
          We assisted the Auditor General and Ombudsman of Israel’s Ministry of
       Transport in planning a future audit on medical standards related to licensing
       of drivers. We provided information regarding how FMCSA conducts compli-
       ance reviews to enforce medical requirements for commercial drivers; audit
       reports on the commercial driver’s license program; Federal regulations on
       medical qualifications for drivers; and web links to information on U.S. driver
       licensing requirements, medical qualifications, and audit standards. (August)

       RISK-ASSESSMENT GUIDE
          We posted a risk-assessment audit guide on the OIG web site that state audi-
       tors may use to evaluate controls over the Federal-aid highway payment process
       to prevent and detect duplicate and erroneous payments. The guide grew out
       of risk-assessment work on the Federal-aid payment process that we conduct-
       ed jointly with auditors from the Florida and Texas Departments of
       Transportation and presented at the July 2003 audit subcommittee meeting of
       the American Association of State Highway and Transportation Officials in
       Duluth, MN. (August)

       NASA HOTLINE IMPROVEMENTS
          Representatives from NASA’s OIG hotline met with DOT OIG
       staff to learn ways to expand and improve their hotline program.
       (September)




                                                                                         O t h e r Ac c om p l i s h m e n t s   47
Complete book5.qxd   3/22/2004   12:33 PM   Page 48
Complete book5.qxd        3/22/2004       12:33 PM       Page 49




                        c h a r t s &
                          ta b l e s

       Summary of Performance
       April 1–September 30, 2003

       Reports issued                                                       54

       Recommendations issued                                              160

       Congressional testimonies                                            10

       Total financial recommendations                             $410,863,188

        — that funds be better used                                $361,160,000

        — that questioned costs                                     $49,703,188

       Cases referred for prosecution                                      137

       Cases accepted for prosecution                                      127

       Indictments                                                         115

       Fines, restitutions, civil judgments, and recoveries        $127,362,279

       Convictions                                                          83

       Debarments and suspensions                                            7

       Actions affecting DOT employees                                      28




                                                                                  49
Complete book5.qxd   3/22/2004    12:33 PM     Page 50




                                                       INVESTIGATIONS
                                                       Judicial and Administrative Actions
                                                       April 1–September 30, 2003

                                                       Indictments                                                                   115
                                                       Administrative actions
                                                         Employee
                                                               — terminations                                                          2
                                                               — suspensions                                                           4
                                                               — reprimands                                                            1
                                                               — counseling                                                            1
                                                               — resignations and retirements                                          4
                                                               — other remedial actions                                               16
                                                         Debarments and suspensions                                                    7
                                                         Licenses revoked or terminated                                                3
                                                       Convictions                                                                    83
                                                       Years sentenced                                                                63
                                                       Years probation                                                              143
                                                       Years supervised release                                                       77
                                                       Hours of community service                                                 5,370
                                                       Fines                                                               $39,599,775
                                                       Restitutions/civil judgments                                         $3,713,439
                                                       Federal recoveries*                                                 $83,976,265
                                                       State recoveries*                                                        $72,800
                                                       TOTAL                                                           $127,362,279

                                                       * “Recoveries” include fines, restitution, civil judgments or settlements, and the cost of remedial actions.
                                                       Federal recoveries go to the U.S. Treasury; state recoveries are retained by the states.




                                                       D
                                                                 uring the six-month reporting period, 171 cases were opened and
                                                                 123 were closed, leaving a pending caseload of 538. Cases involv-
                                                                 ing 137 people and institutions were referred for prosecution.
                                                       Cases involving 127 people and institutions referred during this or prior
                                                       reporting periods were accepted for prosecution, and the cases of 23 people
                                                       or firms were declined. As of September 30, 2003, 21 cases were pending
                                                       before prosecutors.




      50               Semiannual Report to Congress
Complete book5.qxd        3/22/2004         12:33 PM       Page 51




      Profile of Pending Investigations
      As of September 30, 2003
                                                                                               Types of Cases
                                                                       Contract
                                                           Number      & Grant    Employee        Aviation     Motor Carrier
                                                           of Cases     Fraud      Integrity       Safety         Safety         Hazmat         Other
      Operating Administration
      Bureau of Transportation Statistics                          1     0           1              0                 0             0             0

      Federal Aviation Administration                         219       25          70            103                 0            12             9

      Federal Highway Administration                          114      106           4              0                 0             1             3

      Federal Railroad Administration                             13     3           1              0                 0             6             3

      Federal Transit Administration                              22    20           1              0                 0             0             1

      Maritime Administration                                      5     4           1              0                 0             0             0

      Federal Motor Carrier Safety Administration                 98     1           3              0              78              15             1

      Office of the Secretary                                     13     6           6              0                 0             0             1

      Research and Special Programs Administration                37     1           3              0                 0            33             0

      National Highway Traffic Safety Administration              16     2           7              0                 0             0             7

      Other Agencies                                              1      0           1              0                 0             0             0

      Totals                                                 539       168          98            103              78              67           25

      Percent of Total*                                      100%       31%         18%            19 %            14 %            12%            5%
      *Percentages equal more than 100 percent due to rounding.



      Application of Investigative Resources by Priority Area
      April 1–September 30, 2003                                                                                                Other 10%




                                                                                                                                Hazardous
                                                                                                                                materials safety 12%
                                 Contract & grant fraud 35%




                                                                                                                                Employee integrity 12%




                                                                                                                                Aviation safety 13%




                                       Motor carrier safety 18%




                                                                                                        C h a r t s       &   Ta b l e s          51
Complete book5.qxd         3/22/2004        12:33 PM       Page 52




    Application of Investigation Project Hours by Operating Administration
                                                                                                                                                                       MARAD 2%
    April 1–September 30, 2003             Other 2%                                                                                                                    NHTSA 3%
                                                                                                                                                                       FRA 4%

                                                                                                                                                                       RSPA 6%


                                                                           FAA 29%
                                                                                                                                                                       OST 7%




                                                                                                                                                                       FTA 8%



                                                                         FHWA 21%

                                                                                                                                                                       FMCSA 20%




    Percentages do not equal 100 percent due to rounding.




    AUDITS
    Completed OIG Reports
    April 1–September 30, 2003
    (Estimated amounts*, dollars in thousands)
                                                           Number of              Number of                  Questioned           Unsupported          Funds to Be Put
                                                            Reports            Recommendations                 Costs                 Costs              to Better Use
    Type of Review
    Internal Audits
    — Program/Functional                                        19                         97                    $47,000                      $0              $361,160
    — Chief Financial Officer financial statements                0                         0                          $0                     $0                     $0
    Other OIG Internal Reports                                    0                         0                          $0                     $0                     $0

    Total Internal Audits and Reports                           19                        97                   $47,000                       $0             $361,160
    Grant Audits
    — Audits of grantee under Single Audit Act                  35                         63                     $2,703                      $0                     $0

    Total                                                       54                      160                    $49,703                       $0             $361,160
    *The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
    Note: Department of Transportation programs and operations are primarily carried out by the Department’s personnel and recipients of Federal grants. Audits by DOT’s
    Office of Inspector General, as a result, fall into three categories: (1) internal audits of departmental programs and operations; (2) internal reviews of departmental pro-
    grams and operations; and (3) audits of grant recipients. The table shows OIG’s results in the three categories.




       52                      Semiannual Report to Congress
Complete book5.qxd      3/22/2004       12:33 PM       Page 53




       OIG Reports with Recommendations That Questioned Costs
       April 1–September 30, 2003
       (Dollars in thousands)
                                                                  Number of                Number of           Questioned              Unsupported
                                                                   Reports              Recommendations          Costs                   Costs*
       Reports
       A For which no management decision was made
         by the start of the reporting period                           7                      8                  $4,598                   $0

       B Which were issued during the reporting period                14                      20                 $49,703                   $0

       Total A+B                                                      21                      28                $54,301                    $0
       C For which a management decision was made
         during the reporting period                                    4                      7                  $5,320                   $0
         — dollar value of disallowed costs†                            3                      6                  $1,408                   $0
         — dollar value of costs not disallowed†                        1                      1                  $3,911                   $0

       D For which no management decision was made by the
         end of the reporting period                                  17                      21                 $48,982                   $0

       * Unsupported costs are included in figures for questioned costs.
       † Includes reports and recommendations where costs were both allowed and disallowed.




       OIG Reports with Recommendations That Funds Be Put to Better Use
       April 1–September 30, 2003
       (Dollars in thousands)
                                                                    Number of               Number of        Funds to Be Put
                                                                     Reports             Recommendations      to Better Use
       Reports
       A For which no management decision was made
         by the start of the reporting period                               3                      3             $544,100
       B Which were issued during the reporting period                      3                      3             $361,160

       Total A+B                                                            6                      6            $905,260

       C For which a management decision was made
         during the reporting period                                        3                      3             $141,760
          — dollar value of recommendations agreed
            to by management                                                3*                     3*            $141,760
          — dollar value of recommendations
            not agreed to by management                                     0*                     0*                    $0
       D For which no management decision
         was made by the end of the reporting period                        3                      3             $763,500

       * Includes reports and recommendations where costs were both allowed and disallowed.




                                                                                                           C h a r t s        &   Ta b l e s    53
Complete book5.qxd        3/22/2004       12:33 PM     Page 54




    OIG Reports Recommending Changes for Safety, Economy, or Efficiency
    April 1–September 30, 2003
                                                               Number of          Number of
                                                                Reports        Recommendations
    Reports
    A For which no management decision was made
      by the start of the reporting period                        28                     74
    B Which were issued during the reporting period               41                    137

    Total A+B                                                    69                     211

    C For which a management decision was made
      during the reporting period                                29*                     97
    D For which no management decision was made
      by the end of the reporting period                         44*                    114

    * Includes reports where management made decisions on some but not all recommendations.




    Management Decisions Regarding OIG Recommendations
    April 1–September 30, 2003
    (Dollars in thousands)
                                                          Number of           Number of           Questioned     Unsupported   Funds to Be Put
                                                           Reports         Recommendations          Costs          Costs*       to Better Use
    Description
    Unresolved as of October 1, 2002                            31                85                    $4,598       $0            $544,100
    Audits with findings during current period                  46               160                $49,703          $0            $361,160
    Total to Be Resolved                                       77                245               $54,301           $0           $905,260
    Management Decisions:
    — Audits prior period†                                      18                47                    $4,179       $0              $1,600
    — Audits current period†                                    13                60                    $1,141       $0            $140,160
    Total Resolved                                             31                107                $5,320           $0           $141,760
    Unresolved:
    — Less than 6 mos. old                                      36               100                $48,562          $0            $221,000
    — 6 mos.–1 year                                              3                  8                     $53        $0                  $0
    — 1 year–18 mos.                                             0                  0                      $0        $0                  $0
    — 18 mos.–2 years                                            6                18                      $32        $0            $494,500
    — Over 2 years old                                           5                12                     $334        $0             $48,000
    Total Unresolved as of September 30, 2003‡                 50                138               $48,982           $0           $763,500

    * Unsupported costs are included in figures for questioned costs.
    † Includes reports and recommendations where costs were both allowed and disallowed.
    ‡ Considered unresolved if management decisions have not been made on all report recommendations.



       54                      Semiannual Report to Congress
Complete book5.qxd      3/22/2004   12:33 PM   Page 55




      Office of Inspector General Published Reports
      April 1–September 30, 2003
      Operating
      Administration/      Report          Date                                                               Focus of Report/
      Type of Report       Number         Issued                        Title                                 Recommendations

       Federal Aviation Administration
       Internal Audits: Program/Functional—10 reports

                          AV–2003–040     04–03–03       Operational Errors and Runway Incursions             Further actions needed to reduce the number of
                                                                                                              operational errors and runway incursions

                          AV–2003–042     05–20–03       Airspace Redesign:                                   Steps need to be taken to inform Congress
                                                         Yardley/Robbinsville Flip-Flop                       and public about controversial airspace changes

                          FI–2003–043     06–03–03       2002 Status Assessment of Cost-Accounting            Additional actions needed to correct weaknesses
                                                         System and Practices

                          FI–2003–044     06–12–03       Overobligation of ICE-MAN Funds                      $1,141,000 questioned

                          AV–2003–045     06–26–03       Status of FAA’s Major Acquisitions                   Cost, schedule, and performance baselines
                                                                                                              are not reliable and need to be updated

                          AV–2003–047     07–08–03       Review of Air Carriers’ Use of                       Oversight improvements needed
                                                         Aircraft Repair Stations                             for repair stations

                          AV–2003–048     07–23–03       Status Report on FAA’s Operational Evolution Plan    Plans needs to be linked to budget,
                                                                                                              and priorities need to be established

                          AV–2003–057     09–04–03       Safety, Cost, and Operational Metrics                Comparison of metrics between contract visual
                                                         of FAA’s Visual Flight Rule Towers                   flight rule towers and FAA-staffed VFR towers

                          AV–2003–058     09–09–03       FAA Needs to Reevaluate STARS Costs                  Put $221,000,000 to better use
                                                         and Consider Other Alternatives

                          AV–2003–059     09–12–03       FAA’s Management of and Control Over                 Cost and operational impacts of MOUs
                                                         Memorandums of Understanding

       Grant Audits: Audits of Grantee Under Single Audit Act—10 reports

                          QC–2003–051     09–03–03       Little Rock National Airport, AR                     $181,136 questioned

                          QC–2003–053     09–03–03       King County, WA                                      Improve grantee oversight

                          QC–2003–055     09–03–03       Dallas-Fort Worth International Airport, TX          $977,306 questioned

                          QC–2003–060     09–17–03       County of Monroe, NY                                 Improve grantee oversight

                          QC–2003–062     09–18–03       City of Huron, SD                                    $15,319 questioned

                          QC–2003–065     09–18–03       State of Hawaii, Department of Transportation,       Improve grantee oversight
                                                         Airports Division
                                                                                                       C h a r t s     &    Ta b l e s            55
Complete book5.qxd    3/22/2004     12:33 PM      Page 56




    Office of Inspector General Published Reports (continued)

    Operating
    Administration/    Report             Date                                                                   Focus of Report/
    Type of Report     Number            Issued                             Title                                Recommendations
                      QC–2003–066        09–18–03           Miami-Dade County Aviation Department, FL            Improve grantee oversight

                      QC–2003–070        09–18–03           Indianapolis Airport Authority, IN                   $26,567 questioned

                      QC–2003–076        09–23–03           City of Fernandina Beach, FL                         $34,000 questioned

                      QC–2003–091        09–30–03           Allegheny County Airport Authority, PA               Improve grantee oversight

    Federal Highway Administration
    Internal Audits: Program/Functional—1 report

                      QR–2003–089        09–30–03           Follow-Up Audit: Actions Taken to Recover Excess     Put $140,000,000 to better use
                                                            Reserves from the Central Artery/Tunnel Project’s
                                                            Owner-Controlled Insurance Program

    Grant Audits: Audits of Grantee Under Single Audit Act—8 reports

                      QC–2003–052        09–03–03           New Mexico State Highway and Transportation          Improve grantee oversight
                                                            Department

                      QC–2003–061        09–18–03           Lewis County, WA                                     $17,067 questioned

                      QC–2003–064        09–18–03           Commonwealth of Massachusetts                        Improve grantee oversight

                      QC–2003–077        09–23–03           State of Delaware                                    Improve grantee oversight

                      QC–2003–079        09–23–03           State of West Virginia                               Improve grantee oversight

                      QC–2003–084        09–23–03           State of Tennessee                                   $869,963 questioned

                      QC–2003–085        09–23–03           State of California                                  $367,000 questioned

                      QC–2003–087        09–26–03           Central Puget Sound Regional Transit Authority, WA   Improve grantee oversight



    Federal Motor Carrier Safety Administration
    Internal Audits: Program/Functional—1 report

                      MH–2003–041        05–16–03           Follow-Up Audit on Implementation of Commercial      Program met requirements of act but more
                                                            Vehicle Safety Requirements at U.S.-Mexico Border    state action is needed to implement
                                                                                                                 enforcement action
    Federal Transit Administration
    Internal Audits: Program/Functional—2 reports

                      MH–2003–046        07–07–03           Seattle Central Link Light-Rail Project’s            Proposal for project’s first segment was
                                                            Initial Segment                                      reasonable and FTA’s oversight of project
                                                                                                                 was strong.
      56                 Semiannual Report to Congress
Complete book5.qxd   3/22/2004     12:33 PM   Page 57




       Operating
       Administration/    Report          Date                                                                Focus of Report/
       Type of Report     Number         Issued                         Title                                 Recommendations
                         FI–2003–093     09–30–03       Computer Security of Grant Management and             Additional safeguards needed to enhance
                                                        Payment Systems                                       security, strengthen user access, and identify
                                                                                                              software vulnerabilities
       Grant Audits: Audits of Grantee Under Single Audit Act—17 reports

                         QC–2003–050     09–03–03       Los Angeles County Metropolitan                       Improve grantee oversight
                                                        Transportation Authority, CA

                         QC–2003–054     09–03–03       Sacramento Regional Transit District, CA              Improve grantee oversight

                         QC–2003–056     09–03–03       City and County of San Francisco, CA                  $1 questioned

                         QC–2003–063     09–18–03       City of Bettendorf, IA                                Improve grantee oversight

                         QC–2003–067     09–18–03       City of Galveston, TX                                 Improve grantee oversight

                         QC–2003–068     09–18–03       County of Lackawanna, PA                              Improve grantee oversight

                         QC–2003–069     09–18–03       Santa Barbara Electric Transportation Institute, CA   Improve grantee oversight

                         QC–2003–071     09–18–03       Santa Barbara Metropolitan Transit District, CA       Improve grantee oversight

                         QC–2003–072     09–22–03       New Jersey Transit Corporation                        Improve grantee oversight

                         QC–2003–073     09–22–03       Metropolitan Transportation Authority, NY             Improve grantee oversight

                         QC–2003–074     09–23–03       Lafayette City-Parish Consolidated                    Improve grantee oversight
                                                        Government, LA

                         QC–2003–075     09–23–03       Great Falls Transit District, MT                      Improve grantee oversight

                         QC–2003–078     09–23–03       Regional Transit Authority, LA                        Improve grantee oversight

                         QC–2003–081     09–23–03       City of Hattiesburg, MS                               $131,583 questioned

                         QC–2003–082     09–23–03       City of Shreveport, LA                                $66,019 questioned

                         QC–2003–083     09–23–03       Centre Area Transportation Authority, PA              $17,530 questioned

                         QC–2003–090     09–30–03       Greater Cleveland Regional Transit Authority, OH      Improve grantee oversight

       Office of the Secretary of Transportation
       Internal Audits: Program/Functional—5 reports

                         FI–2003–049     08–28–03       Use of Government Travel Charge Cards                 Put $160,000 to better use

                         FI–2003–086     09–25–03       Information Security Program                          While progress has been made,
                                                                                                              security over DOT computer systems
                                                                                                              remains a material weakness


                                                                                                     C h a r t s       &    Ta b l e s            57
Complete book5.qxd        3/22/2004         12:33 PM      Page 58




    Office of Inspector General Published Reports (continued)

    Operating
    Administration/         Report                Date                                                                   Focus of Report/
    Type of Report          Number               Issued                           Title                                  Recommendations

                          SC–2003–088            09–26–03           Policy and Procedures for Locating                   Progress has been made in complying with
                                                                    Federal Facilities in Rural Areas                    the act, but additional action required

                          CR–2003–092            09–30–03           Air Carrier Compensation Claims                      $45,858,697 questioned

                          FI–2003–094            09–30–03           Computer Security of Delphi Financial                Further actions needed to enhance
                                                                    Management System                                    security and controls




    Office of Inspector General Congressional Testimonies
    April 1–September 30, 2003

    Title                                                                 Congressional Body                                                      Testimony Date

    The State of the Aviation Industry and the                            Senate Appropriations Subcommittee on Transportation/Treasury             04–02–2003
    Federal Aviation Administration                                       and General Government


    Cost Control Issues for FAA’s Operations                              House Appropriations Subcommittee on Transportation/Treasury              04–09–2003
    and Modernization Accounts                                            and General Government


    The Future of Intercity Passenger Rail Service and Amtrak             Senate Committee on Commerce, Science, and Transportation                 04–29–2003


    Management of Cost Drivers on Federal-Aid Highway Projects            House Appropriations Subcommittee on Transportation/Treasury              05–08–2003
                                                                          and General Government


    Statement Before the National Commission                              National Commission on Terrorist Attacks Upon the United States           05–22–2003
    on Terrorist Attacks Upon the United States on Air Security


    Title XI Loan-Guarantee Program                                       Senate Committee on Commerce, Science, and Transportation                 06–05–2003


    Opportunities to Control Costs and Improve                            House Committee on the Budget                                             07–09–2003
    the Effectiveness of DOT Programs


    FAA Efforts to Locate Aircraft N711RD                                 House Committee on Transportation and Infrastructure                      07–15–2003


    Controlling Costs and Improving the                                   House Committee on Transportation and Infrastructure                      07–22–2003
    Effectiveness of FHWA and FTA Programs


    Safety and Cost Metrics of FAA’s Visual Flight Rule Towers            House Transportation and Infrastructure Subcommittee on Aviation          09–24–2003




       58                     Semiannual Report to Congress
Complete book5.qxd        3/22/2004       12:33 PM     Page 59




       Status of Unresolved Recommendations Over Six Months Old

       Cited in Semiannual Report for Reporting Period —                 Report No.          Date Issued                                Status
       April 1–September 30, 2000
       Contract Towers: Observations on FAA’s                           AV–2000–079             04–12–00               Awaiting additional information from FAA
       Study of Expanding the Program

       October 1, 2000–March 31, 2001
       Airport Noise Compatibility Program                              AV–2001–012             12–14–00               Awaiting additional information from FAA

       Castle Joint Powers Authority, California                        QC–2001–022             02–14–01               Working with grantee to resolve issues

       April 1–September 30, 2001
       State of Indiana                                                 QC–2001–052             04–11–01               Working with grantee to resolve issues

       Compensation Issues Concerning Air Traffic Managers,             AV–2001–064             06–15–01               Working with FAA to resolve open issues
       Supervisors, and Specialists

       October 1, 2001–March 31, 2002
       Downtown Waycross Development Authority, Georgia                 QC–2002–027             10–31–01               Working with grantee to resolve open issues

       State of Minnesota                                               QC–2002–030             10–31–01               Working with grantee to resolve open issues

       State of Indiana                                                 QC–2002–032             10–31–01               Working with grantee to resolve open issues

       Operational and Supportability Implementation System             AV–2002–064             12–07–01               Working with FAA to resolve open issues

       Review of FAA’s Oversight of Aircraft Maintenance                AV–2002–066             12–12–01               Working with FAA to resolve open issues

       FAA’s Acquisition of Aviation Weather Systems                    AV–2002–084             02–28–02               Working with FAA to resolve open issues

       October 1, 2002–March 31, 2003
       Innovative Pavement Research Foundation                          QC–2003–035             03–31–03               Working with grantee to resolve open issues

       City of Shoreline, King County, Washington                       QC–2003–037             03–31–03               Working with grantee to resolve open issues

       Birmingham Regional Paratransit Consortium                       QC–2003–038             03–31–03               Working with grantee to resolve open issues

       Note: In FY 2003, a total of 95 recommendations were transferred to the Department of Homeland Security for resolution — 7 for FAA, 11 for the Coast Guard, and
       77 for the Transportation Security Administration.




                                                                                                               C h a r t s         &    Ta b l e s              59
Complete book5.qxd        3/22/2004      12:33 PM       Page 60




    Application of Audit Project Hours by Operating Administration
                                                                                                                                                           MARAD 1%
    April 1–September 30, 2003             Other 1%                                                                                                        NHTSA 2%
                                                                                                                                                           FMCSA 4%

    Note: Resources shown for OST include time spent
                                                                                                                                                           RSPA 5%
    auditing the DOT Consolidated Financial Statement
    (which includes all Operating Administrations) and com-
    puter security activities, including for the Delphi              FAA 29%
    Financial Management System.                                                                                                                           FRA 8%
    “Other” represents resources expended on the National
    Transportation Safety Board, St. Lawrence Seaway
    Development Corporation, Surface Transportation Board,
    and National Commission on Terrorist Attacks Upon the                                                                                                  FTA 9%
    United States and totaled less than 1 percent each.

                                                                     OST 29%

                                                                                                                                                           FHWA 11%




    Percentages do not equal 100 percent due to rounding.


    Required Statements:
       The Inspector General Act requires the Semiannual Report to carry explanations if, during the reporting period, departmental management significantly revised
    management decisions stemming from an audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period, departmental man-
    agement did not report any significant revisions to management decisions.
       The act also requires descriptions of any significant decisions that departmental management made regarding an audit with which OIG disagrees. When the
    reporting period closed, there were no such significant decisions with which OIG disagreed.




       60                    Semiannual Report to Congress
Complete book5.qxd   3/22/2004    12:33 PM    Page 61




             A w a r d s
                          Secretarial Awards
                         Award for Meritorious Achievement
       John W. Long
          For leading an investigation regarding fraud and corruption among enti-
       ties receiving DOT disadvantaged business enterprise funds in New Orleans,
       LA, in response to a request by the House Transportation Appropriations
       Subcommittee.
       Stuart A. Metzger
          For leading a variety of complex, high-visibility projects involving rail, airline,
       and maritime issues, and for developing more than 20 congressional testi-
       monies regarding OIG work.

                                   Award for Excellence
       Joyce K. Mayeda
         For outstanding administrative support to the Office of Hazardous Material,
       Security, and Special Programs, in San Francisco, Seattle, and Washington, DC.
       Sandra M. Roper
         For support to OIG’s Region 4 investigative staff by conducting back-
       ground, financial, and personal history checks and Internet research.


                           Partnering for Excellence Award
       Household Goods Moving Companies Fraud Team
          For outstanding investigative efforts that uncovered various household mov-
       ing scams and resulted in 81 individuals and 13 corporations being charged in
       the Southern District of Florida with conspiracy, mail fraud, wire fraud, extor-
       tion, money laundering, and making fraudulent bills of lading.
          Barbara L. Barnet, David J. Barnes, Steven A. DeFazio, Roberto Manzanares

                                         Team Award
       Highway Construction Fraud Investigation Team
          For outstanding investigative work that uncovered evidence of a contractor’s
       fraud through false invoices on highway and bridge construction projects, led
       to successful prosecution of the parties, and resulted in $8.7 million in restitu-
       tion, penalties, and damages.
          Todd A. Damiani, Theodore L. Doherty III, Kevin R. Gaul, Leigh R. Hinson,
       Joseph B. McGovern, Jennifer A. Walker




                                                                                                61
Complete book5.qxd   3/22/2004    12:33 PM      Page 62




                                                     Transportation Security Audit Team
                                                        For outstanding effort, dedication, and contributions toward monitoring
                                                     TSA’s progress in implementing key provisions of the Aviation and
                                                     Transportation Security Act of 2002.
                                                        Terri A. Ahuruonye, George E. Banks, Kari E. Beitel, Gerald L. Blumenthal,
                                                     Randolfo E. De Leon, Sandra M. DeLost, Gary B. Fishbein, Rita L. Fox, Brian
                                                     J. Frist, Kirk A. Gillett, Lester D. Girdlestone, Carlton H. Hamilton, Earl C.
                                                     Hedges, Doral D. Hill, John C. Hudson, Robin K. Hunt, Stephen L. Jones, Kevin
                                                     J. Kelly, Sr., Gary W. Kirk, Robert Y. Lee, Scott K. Macey, Angela D. McCallister,
                                                     Robert F. Meisenhelder, M. Jeffrey Mortensen, Shirley H. Murphy, Judy W. Nadel,
                                                     Paul Nagulko, Daniel R. Raville, Petra Rose, Mary E. Smothers, Keri L. Spencer,
                                                     Kim P. Tieu, Larry B. Walker, Michael G. Weisz, Philip B. Windust, Renee Yancy

                                                                              Volunteer Service Award
                                                     DOT Headquarters Tutoring Team
                                                        For maintaining an outstanding tutorial program at the Lemon G. Hine
                                                     School and serving as the catalyst for many students to embark upon “pathways
                                                     to academic excellence.”
                                                        Ji Young Yoo


                                                              Inspector General Awards
                                                                        Award for Superior Achievement

                                                     Thomas K. Lehrich
                                                        For providing invaluable legal advisory services, administering a highly suc-
                                                     cessful legal intern program in OIG, and serving as an instructor for the
                                                     Inspector General academy at the Federal Law Enforcement Training Center.
                                                     James L. Muhlenkamp
                                                         For his unrivaled motivation and professionalism in conducting highly sen-
                                                     sitive investigations.
                                                     Ping Zhong Sun
                                                         For leading numerous initiatives in identifying computer security vulnerabil-
                                                     ities in department-wide computer systems and operations.

                                                                       Exceptional Civilian Service Award
                                                     Richard C. Beitel, Jr.
                                                        For professionalism and integrity in conducting highly sensitive criminal
                                                     investigations.




    62               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 63




            A w a r d s
       James F. Heminger
         For exemplary service to OIG in ensuring the security and integrity of infor-
       mation technology systems and operations nationwide and ensuring uninter-
       rupted user access.
       Shirley H. Murphy
         For her expert editorial review of OIG audit reports and testimony and for
       ensuring style, uniformity, and coherence are of the highest quality.


                         Marguerite Christensen Award for
                          Excellence in Administration
       Charles G. Hiep
         For consistent professionalism in administering OIG’s budget and financial
       programs and operations.

                                  Manager of the Year
       LaVan Griffith
          For greatly enhancing the responsiveness, morale, and overall performance
       of OIG’s Investigative Field Operations Office.
       Richard A. Kaplan
          For outstanding leadership in numerous audits and testimonies, including an
       audit of the $1 billion National Airspace System implementation support con-
       tract, which resulted in $5 million in reprogrammed FAA funds, and the audit
       of runway incursions and operation errors, which identified significant safety
       risks to air travelers.
       Scott K. Macey
          For managing several high-profile and complex audits involving aviation
       security.
                                 Supervisor of the Year
       Barbara L. Barnet
         For leading investigations that resulted in 167 judicial actions, 110 indict-
       ments, and over $2 million in fines and restitution.
       Theodore L. Doherty III
          For excelling in his role as supervisor of OIG’s Cambridge, MA, investiga-
       tive staff.
       Robert F. Meisenhelder
          For supervising several high-profile audits, including OIG’s audit of TSA
       screener hiring and training.




                                                                                         a w a r d s   63
Complete book5.qxd   3/22/2004    12:33 PM      Page 64




                                                     Tina B. Nysted
                                                        For leading the audit of security at aircraft repair stations and air station
                                                     operations, which resulted in two separate audit reports and included several
                                                     briefings with the Inspector General, Congress, and high-level aviation indus-
                                                     try and National Transportation Safety Board officials.
                                                     Mary E. Smothers
                                                       For outstanding leadership in preparing the DOT financial statement and
                                                     TSA screener contract audits.
                                                     Charles A. Ward
                                                       For supervising two major audits over the past year that resulted in signifi-
                                                     cant cost savings to the Department.


                                                                                 Employee of the Year
                                                     Richard C. Appleton
                                                        For excellent investigative skills on several highly significant investigations of
                                                     sensitive issues, such as improprieties on the part of departmental senior exec-
                                                     utives.
                                                     Kari E. Beitel
                                                       For her key leadership role in OIG’s high-visibility audit of the Federal Air
                                                     Marshal Program.
                                                     Judy K. Blackwell
                                                       For excellent planning and leadership skills on audit-wide administrative,
                                                     management, and reporting issues.
                                                     Bernard Fishman
                                                       For exceptional contributions to the Department’s review of air carrier com-
                                                     pensation payments and loan-guarantee applications and to OIG’s oversight of
                                                     MARAD’s Title XI Loan-Guarantee Program.
                                                     Megan K. France
                                                       For completing a lengthy and highly successful investigation of hazardous
                                                     material violations by a worldwide airline.
                                                     Tammy L. Hegarty
                                                       For her instrumental role in the success of various investigative initiatives.
                                                     Raymond A. Larpenteur
                                                       For exceptional leadership and professionalism in auditing the Seattle
                                                     Central Link Light Rail Project.
                                                     Angela D. McCallister
                                                        For superior analysis of, and contributions to, several OIG testimonies
                                                     regarding TSA and FAA.
                                                     Angela M. Thorpe
                                                        For making significant improvements to the effectiveness and operational
                                                     integrity of OIG’s training program.


    64               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 65




            A w a r d s
                      Administrative Professional of the Year
       Angela R. Hailes
         For exemplary support to OIG’s integrity investigations and Complaint
       Center operations.
       Florence H. Scheiner
          For outstanding administrative support of OIG’s Baltimore and Oklahoma
       City regional audit offices.
       Queen E. Simms
         For exemplary performance, professionalism, and initiative in supporting
       OIG’s human resources programs and operations.

                                  New Employee Award
       Venetia D. Bell
         For greatly enhancing OIG’s legal representation in the critical areas of
       employment and personnel law.
       M. Dietrich Bohmer
          For being a highly motivated employee whose accomplishments far exceed
       his grade level.
       Jill L. Cottonaro
           For being an industrious worker who performs complex tasks in a quality
       manner.
       Scott V. Harding
         For handling and closing more than 200 cases for OIG’s hotline complaint
       center over the last year.
       Michael W. Knobloch
          For his stellar work ethic in all assignments and handling sensitive investiga-
       tions with the highest degree of professionalism.
       Amitra J. Mamdouhi
         For significant contributions to OIG’s coverage of U.S. Coast Guard operations.
       Livingston Pati
          For exceeding job expectations in his contributions and having a take-charge
       attitude, which is a positive influence on the San Francisco audit office.

                                       Team Awards
       Airline Compensation Audit Team
          For outstanding support in ensuring air carriers received appropriate com-
       pensation under the Air Transportation Safety and System Stabilization Act.
          Mark R. Dayton, James H. Diecker, Joann Felix, Bernard Fishman, Kirk A.
       Gillett, Michael E. Goldstein, Doral D. Hill, Timothy G. Keane, Deborah A.
       Kloppenbburg, George Lavanco, Johanna L. Nathanson, Joseph Tschurilow



                                                                                            a w a r d s   65
Complete book5.qxd   3/22/2004    12:33 PM      Page 66




                                                     Audit Team for Controls over Labor Agreements at FAA
                                                       For disclosing significant deficiencies in the negotiation, implementation,
                                                     cost analyses, and tracking regarding memoranda of understanding between
                                                     FAA managers and the National Air Traffic Controllers Association.
                                                       Susan L. Bader, Francis E. Danielski, David A. Dobbs, Christopher S. Frank,
                                                     Kimberly A. Leading, Erik A. Phillips, Robert F. Prinzbach II, Daniel R.
                                                     Raville, Robert A. Romich, Coletta A. Treakle
                                                     Aviation Safety Investigation Team
                                                        For exemplary service during an investigation stemming from a fatal airplane
                                                     crash that involved harassment of a pilot by FAA regulatory personnel.
                                                        David J. Barnes, Richard C. Beitel, Jr., Brian A. Dettelbach, Robert L. Drake,
                                                     James L. Muhlenkamp
                                                     DHL Airways Review Team
                                                        For conducting an intensive review of DOT’s process for determining if the
                                                     ownership of air carrier DHL Airways and management structure meet Federal
                                                     U.S. citizenship requirements.
                                                        Mark R. Dayton, Brian A. Dettelbach, Seth B. Kaufman, Thomas K. Lehrich,
                                                     Jennifer Thibodeau
                                                     DOT Computer Security Audit Team
                                                        For identifying hundreds of unauthorized network connections to DOT sys-
                                                     tems and vulnerabilities in DOT web sites and assisting DOT in developing a
                                                     strategy for system security reviews and certification — a major challenge since
                                                     only about 20 percent of DOT systems had undergone such review.
                                                        Jean C. Ablutz, Mitchell N. Balakit, Nathan J. Custer, Philip J. deGonzague,
                                                     Bradley K. Kistler, Gary M. Klauber, Henry S. Lee, Rebecca C. Leng, James F.
                                                     Mallow, Michael L. Marshlick, Ping Zhong Sun, Cynthia F. Tims, Ji Young Yoo
                                                     FAA Terminal Automation Modernization Strategy Audit Team
                                                       For determining that FAA’s plan to deploy the Standard Terminal Automation
                                                     Replacement System at all terminal facilities was no longer cost-effective and that
                                                     FAA could save more than $220 million by revising its strategy.
                                                       George E. Banks, Robert F. DeAntonio, Katrina F. Knight, Michael L.
                                                     Marshlick, Adam B. Schentzel, Victoria J. Smith, M. Joanne Wallis, Charles A.
                                                     Ward
                                                     Investigation Team for FAA Actions to Locate Aircraft N711RD
                                                        For conducting a high-profile, short-suspense investigation at the request of
                                                     Senator Joseph Lieberman into FAA’s involvement in the May 2003 search for
                                                     aircraft N711RD, which was associated with absent Texas legislators.
                                                        Richard C. Appleton, David J. Barnes, Richard C. Beitel, Jr., Helena T.
                                                     Chavez, John R. Davenport, Brian A. Dettelbach, Heather J. Halliwell, David P.
                                                     Hooper, Charles V. Karshner, Michael W. Knobloch, James L. Muhlenkamp,
                                                     Gilbert Salazar, Jr., R. Curt Vaughan, Joseph M. Zschiesche




    66               Semiannual Report to Congress
Complete book5.qxd   3/22/2004   12:33 PM   Page 67




            A w a r d s
       MARAD Title XI Audit Team
          For assessing the Maritime Administration’s loan-guarantee process, in
       response to congressional concerns over recent maritime bankruptcies and loan
       defaults totaling $490 million.
          Mitchell L. Behm, Christopher T. Brothers, Mark R. Dayton, David S. Engelen,
       Gary B. Fishbein, Bernard Fishman, Michael E. Goldstein, Leila D. Kahn, Stuart
       A. Metzger, William E. Savage, Pamela J. Steele-Nelson, Joseph Tschurilow,
       Wayne L. White
       New Orleans DBE Task Force
         For their investigation into disadvantaged business enterprise programs in
       New Orleans that receive DOT funds.
         Timothy L. Arnold, M. Dietrich Bohmer, Kent E. Byers, Vito S. Corso, Craig S.
       Furey, Marlies T. Gonzalez, David J. Hoefler, Aleta N. Huser, Charles V.
       Karshner, Theodore M. Kilby, Jr., John W. Long, Charles K. Millard, Charles V.
       Miller, David R. Uhl, Vivian M. Vega, Jennifer A. Walker, Bradley D. Wheeler,
       Edwin J. Wynn, John M. Zuniga
       Office of Human Resources
          For outstanding teamwork in meeting exceptionally challenging reporting
       and program requirements.
          Lyn Banagan, Kelly M. French, Vivian B. Jarcho, Leslie A. McBroom, Karen
       A. Muller, Joanne M. Pittman, Queen E. Simms
       Olympic Pipeline Investigation Team
          For excellent investigative and teamwork skills related to the Olympic
       Pipeline rupture in Washington State that killed two children and one adult.
          Lisa A. Glazzy, Michelle Ward McGee
       Orbitz Audit Team
          For exceptional teamwork skills in analyzing the impact of emerging trends
       in travel distribution on consumers’ ability to access airfares and service.
          Mark R. Dayton, Robert M. Finley, Leila D. Kahn, Lisa T. Mackall, Stuart
       A. Metzger, Lauralyn J. Remo, Petra Rose, Joshua L. Schank



          President’s Council on Integrity
              and Efficiency Awards
                           Award for Excellence — Audit
       Aircraft Repair Station Safety and Security Oversight Audit Team
          For exceptional performance in enhancing FAA’s and TSA’s oversight of
       safety and security of aircraft repair stations.
          Lou E. Dixon, David A. Dobbs, Curtis S. Gelber, Mark A. Gonzales, Brian J.
       Huckaby,Thomas D. Jefferson, Mike J. Leibrecht, Tina B. Nysted, Katherine A.
       Yutzey


                                                                                         a w a r d s   67
Complete book5.qxd   3/22/2004    12:33 PM      Page 68




                                                     Audit Team for FAA Major Acquisitions
                                                        For excellent teamwork in fostering improvements in FAA’s management
                                                     and oversight of major air traffic control modernization projects.
                                                        Catherine Aubrey, Amanda D. Barton, Fidel Cornell, Jr., Robert F.
                                                     DeAntonio, David A. Dobbs, Kevin Dorsey, Steven E. Erb, Matthew E. Hampton,
                                                     Heidemarie E. Leinneweber, Shirley H. Murphy, Krystal L. Patrick, Donald E.
                                                     Pierro, Melissa Pyron-Satchell, Jennifer L. Randall, Victoria J. Smith, Samuel S.
                                                     Vass, Jr., Charles A. Ward, Sean L. Woods
                                                     Audit Team for Implementing Strategies to Increase Seat Belt Use
                                                        For identifying successful strategies for increasing the use of seat belts and
                                                     reporting progress by the National Highway Traffic Safety Administration and
                                                     the states in increasing seat belt use.
                                                        Janice S. Alger, Ronald H. Hoogenboom, Michael M. Siviy, Gary D. Stivers
                                                     Central Artery/Tunnel Audit Team
                                                       For outstanding performance in reviewing and improving the Central
                                                     Artery/Tunnel Project finance plans and the owner-controlled insurance program.
                                                       Peter F. Babachicos, Laurence G. Burke, John M. Hannon, Richard A.
                                                     Kaplan, Seth B. Kaufman, Harriet E. Lambert, Thomas K. Lehrich, William R.
                                                     Lovett, Paul D. McBride, Rodolfo E. Pérez
                                                     Financial Management Audit Team
                                                        For identifying hundreds of millions of dollars in Antideficiency Act viola-
                                                     tions, and noncompliance with other appropriations law provisions.
                                                        Sharon J. Ayers, Jill L. Cottonaro, Sandra M. DeLost, Terrence J. Letko,
                                                     Lakarla M. Lindsay, Leonard F. Meade, Michael S. Ralph, Stacie A. Seaborne,
                                                     Linda L. Toms, Thomas E. Wise, Jr.
                                                     Operational Error and Runway Incursion Audit Team
                                                        For outstanding contributions in identifying initiatives to further reduce seri-
                                                     ous aviation incidents by identifying necessary FAA actions and providing con-
                                                     tinuous oversight of the issue by keeping the Secretary, the FAA Administrator,
                                                     and Congress informed of these issues through reports and testimonies.
                                                        Curt L. Boettcher, David A. Dobbs, Kevin F. George, Mary E. Hanson,
                                                     Richard A. Kaplan, James D. Madden, Jeannette M. McDonald, Shirley H.
                                                     Murphy, Petra Rose
                                                     Seattle Central Link Light-Rail Project Audit Team
                                                        For exceptional efforts in auditing revised plans for the first phase of this
                                                     $2.4 billion light-rail project to determine whether conditions had been met
                                                     for receiving $500 million in Federal grant money.
                                                        Sarah E. Batipps, Mitchell L. Behm, Diana R. Brattain, Gloria J. Echols,
                                                     Bernard Fishman, Seth B. Kaufman, Raymond A. Larpenteur, Thomas K.
                                                     Lehrich, Rodolfo E. Pérez, Leslie A. Smith




    68               Semiannual Report to Congress
Complete book5.qxd    3/22/2004   12:33 PM   Page 69




            A w a r d s
       TSA Security Screener Contracts Audit Team
          For saving the Department approximately $100 million as a result of their
       review of security screener contracts administered by TSA.
          George E. Banks, Brian J. Frist, Earl C. Hedges, Kevin J. Kelly, Sr., Mary E.
       Smothers, Larry B. Walker, Michael G. Weisz, Renee Yancy

                         Award for Excellence — Evaluation
        Aviation Security Technologies Audit Team
          For performing a congressionally requested review to identify and categorize
       aviation security technologies that have potential for improving aviation security.
          Terri A. Ahuruonye, Kari E. Beitel, Curt L. Boettcher, Rita L. Fox, Robin K.
       Hunt, Gary W. Kirk, Robert Y. Lee, James H. Yeager, Katherine A. Yutzey
                        Award for Excellence — Investigation
       Household Goods Moving Companies Fraud Investigation Team
         For its work with FMCSA, the Federal Bureau of Investigation, and the U.S.
       Attorney’s Office on this two-year undercover investigation.
         Barbara L. Barnet, Steven A. DeFazio, Roberto Manzanares

                     Award for Excellence — Law and Regulation
       SAFETEA Reauthorization Team
          For exceptional efforts in ensuring that robust stewardship and oversight
       provisions were incorporated in the Administration’s $247 billion surface trans-
       portation reauthorization proposal — the Safe and Accountable Transportation
       Equity Act — which will serve as the largest surface and public transportation
       investment in U.S. history.
          Brian A. Dettelbach, Paul M. Feeney, LaVan Griffith, Michael D. Gulledge,
       Richard A. Kaplan, Francis H. Ochs, David R. O’Connell, Brian J. O’Malley,
       Loretta F. Swanson

                     Award for Excellence — Multiple Disciplines
       Aviation Safety Investigation Team
          For exemplary service during an investigation into alleged harassment of a
       pilot by regulatory personnel of the Federal Aviation Administration.
          David J. Barnes, Richard C. Beitel, Jr., Brian A. Dettelbach, Robert Drake,
       James L. Muhlenkamp

                  Award for Excellence — Joint PCIE and ECIE
       Office of Legal, Legislative, and External Affairs
          For exceptional representation and advancement of the interests of the
       Inspector General community with the Administration and Congress.
          Brian A. Dettelbach, Paul M. Feeney



                                                                                             a w a r d s   69
Complete book5.qxd         3/22/2004         12:33 PM   Page 70




                                                                  m i s s i o n,
                                                             o r g a n i z a t i o n,
                                                               & contacts

                                                        T
                                                                  he Office of Inspector General for the Department of Transportation
                                                                  was created by Congress through the Inspector General Act of 1978
                                                                  (Public Law 95–452). The act sets several goals for OIG:

                                                        ■   To conduct or supervise objective audits and investigations of DOT’s pro-
                                                            grams and operations;

                                                        ■   To promote economy, effectiveness, and efficiency within DOT;

                                                        ■   To prevent and detect fraud, waste, and abuse in the Department’s pro-
                                                            grams;

                                                        ■   To review existing and proposed laws or regulations affecting the
                                                            Department and make recommendations about them;

                                                        ■   To keep the Secretary of Transportation and Congress fully informed about
                                                            problems in departmental programs and operations.

                                                                                                           OIG is divided into two major
      OIG FY 2003 Program-Level Resources                                                               units and five support units. The
      Total: $63,833,365                                                                                major units are the Office of the
                                                                                                        Principal Assistant Inspector General
                       Travel $2,278,000                                         Working Capital Fund
                                                                                                        for Auditing and Evaluation and the
                                                                                 $1,978,000             Office of Assistant Inspector General
                       Other $5,164,000                                                                 for Investigations. Each has head-
                                                                                                        quarters staff and field staff. The sup-
                 Rent to GSA $3,870,000                                                                 port units are the Office of Legal,
                                                                                                        Legislative, and External Affairs; the
         Advisory and Assistance Contracts                                                              Office of Technical Resource
                              $5,822,000                                                                Management; the Office of Human
                                                                                                        Resources; the Office of Financial,
     Personnel Compensation and Benefits                                                                Administrative, and Information
                          $44,721,365                                                                   Management; and the Office of
                                                                                                        Quality Assurance Reviews/Internal
                                                                                                        Affairs.




    70              Semiannual Report to Congress
                                                                                                                                                                                                                            Complete book5.qxd




                                                                                                                                   Inspector General
                                                                                                                                                                                                                            3/22/2004




                                                                                                                               Deputy Inspector General
                                                                                                                                                                                                                            12:33 PM
                                                                                                                                                                                                                            Page 71




                                                                                               Assistant IG for
                                                             Assistant IG for                                                   Principal Assistant IG for
                                                                                             Legal, Legislative, &                                                        Quality Assurance Reviews & Internal Affairs
                                                              Investigations                                                     Auditing & Evaluation
                                                                                               External Affairs
                                                                                                                                                                               Technical Resource Management
                                                                                                                                                                                       Human Resources
                                                             Deputy AIG for                                                                                           Financial, Administrative, & Information Management
                                                             Investigations




                                                                                                                                                                                             Deputy AIG for
                                                                                                         Assistant IG for             Assistant IG for          Assistant IG for
                                                                          Assistant IG for                                                                                                Hazardous Materials,
                                                                                                     Financial & Information        Surface & Maritime       Competition & Economic
                                                                          Aviation Audits                                                                                                  Security, & Special
                                                                                                        Technology Audits                Programs                   Analysis
                                                                                                                                                                                               Programs



                                                                             Deputy AIG for
                                                                        Information Technology
                                                                          & Computer Security




M i s s i o n , O r g a n i z a t i o n , & C o n ta c t s
       71
Complete book5.qxd       3/22/2004    12:33 PM      Page 72




                                                                             contacts
                                                       Inspector General
                                                       Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1959

                                                       Deputy Inspector General
                                                       Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767

                                                       Principal Assistant Inspector General for Auditing and Evaluation
                                                       Alexis M. Stefani . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1992

                                                       Assistant Inspector General for Investigations
                                                       Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1967

                                                       Deputy Assistant Inspector General for Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Vacant

                                                       Assistant Inspector General for Legal, Legislative, and External Affairs
                                                       Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8751

                                                       Chief Counsel
                                                       Thomas Lehrich . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–2923

                                                       Public Affairs Officer
                                                       David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6312

                                                       Assistant Inspector General for Aviation Audits
                                                       David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0500

                                                       Assistant Inspector General for Financial and Information Technology Audits
                                                       Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0687

                                                       Deputy Assistant Inspector General for Information Technology and Computer Security
                                                       Rebecca C. Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1488

                                                       Assistant Inspector General for Surface and Maritime Programs
                                                       Debra S. Ritt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–5630

                                                       Assistant Inspector General for Competition and Economic Analysis
                                                       Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–9970

                                                       Deputy Assistant Inspector General for Hazardous Material, Security, and Special Programs
                                                       Robin K. Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 744–0420

                                                       Director for Audit Planning, Training, and Technical Support
                                                       Sue Murrin . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1453

                                                       Director of Technical Resource Management
                                                       James Heminger . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1498
     Hotline to report fraud, waste, and abuse:
                                                       Director of Human Resources
          phone:     1–800–424–9071                    Vivian Jarcho . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 493–0129
             fax:    202–366–7749
                                                       Director of Financial, Administrative, and Information Management
          e-mail:    hotline@oig.dot.gov
                                                       Jackie Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1495
     OIG website:    http://www.oig.dot.gov
                                                       Director of Quality Assurance Reviews and Internal Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . Vacant


    72              Semiannual Report to Congress
Complete book5.qxd             3/22/2004             12:33 PM           Page 73




                            acronyms
       AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Assistant Inspector General
       AIR–21 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Aviation Investment and Reform Act for the 21st Century
       ATOP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technologies and Oceanic Procedures
       BTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Transportation Statistics
       CDL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .commercial driver’s license
       DBE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .disadvantaged business enterprise
       DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Transportation
       DUI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .driving under the influence
       FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration
       FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Bureau of Investigation
       FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Highway Administration
       FMCSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Motor Carrier Safety Administration
       FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Railroad Administration
       FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Transit Administration
       GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration
       ICE-MAN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Integrated Computing Environment Mainframe and Network
       IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Inspector General
       INS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Immigration and Naturalization Service
       IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Internal Revenue Service
       IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .information technology
       MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Maritime Administration
       MOU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .memorandum of understanding
       NAFTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .North American Free Trade Agreement
       NASA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Aeronautics and Space Administration
       NHTSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Highway Traffic Safety Administration
       NTSB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Transportation Safety Board
       OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General
       OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
       OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary of Transportation
       RSPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Research and Special Programs Administration
       SafeStat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Status Measurement System
       STARS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Standard Terminal Automation Replacement System
       TREAD Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Recall Enhancement, Accountability, and Documentation Act of 2000
       TSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Security Administration
       VFR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .visual flight rule


                                                                                                                                                                                                                             73
Cvrs 2-23-04.qxd   3/19/04   11:15 AM   Page 2




                                                                                       Office of Inspector General
                                                                                       U.S. Department of Transportation




                                                 U.S. Department of Transportation
                                                      Office of Inspector General
                                                       400 Seventh Street, S.W.
                                                                                     APRIL 1 – SEPTEMBER 30, 2003
                                                       Washington, D.C. 20590
